<html>
<title> - [H.A.S.C. No. 113-45] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2014 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-45]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                  FISCAL YEAR 2014 BUDGET REQUEST FOR

                    ATOMIC ENERGY DEFENSE ACTIVITIES

                      AND NUCLEAR FORCES PROGRAMS

                               __________

                              HEARING HELD
                              MAY 9, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 




                  U.S. GOVERNMENT PRINTING OFFICE
82-460                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                      Eric Smith, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, May 9, 2013, Fiscal Year 2014 Budget Request for Atomic 
  Energy Defense Activities and Nuclear Forces Programs..........     1

Appendix:

Thursday, May 9, 2013............................................    37
                              ----------                              

                         THURSDAY, MAY 9, 2013
 FISCAL YEAR 2014 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES 
                      AND NUCLEAR FORCES PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Creedon, Hon. Madelyn R., Assistant Secretary of Defense for 
  Global Strategic Affairs, U.S. Department of Defense...........     1
Harvey, Dr. John, Principal Deputy Assistant Secretary for 
  Nuclear, Chemical, and Biological Defense Programs, U.S. 
  Department of Defense..........................................     5
Huizenga, David G., Senior Advisor for Environmental Management, 
  U.S. Department of Energy......................................     6
Kehler, Gen C. Robert, USAF, Commander, U.S. Strategic Command, 
  U.S. Air Force.................................................     3
Miller, Hon. Neile L., Acting Administrator and Principal Deputy 
  Administrator, National Nuclear Security Administration........     4
Winokur, Hon. Peter S., Chairman, Defense Nuclear Facilities 
  Safety Board...................................................     8

                                APPENDIX

Prepared Statements:

    Creedon, Hon. Madelyn R......................................    43
    Harvey, Dr. John.............................................    94
    Huizenga, David G............................................   103
    Kehler, Gen C. Robert........................................    55
    Miller, Hon. Neile L.........................................    78
    Rogers, Hon. Mike............................................    41
    Winokur, Hon. Peter S........................................   114

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Dr. Fleming..................................................   140
    Mr. Franks...................................................   139
    Mr. Lamborn..................................................   140

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   148
    Mr. Langevin.................................................   153
    Mr. Rogers...................................................   143
 FISCAL YEAR 2014 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES 
                      AND NUCLEAR FORCES PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                             Washington, DC, Thursday, May 9, 2013.
    The subcommittee met, pursuant to call, at 9:01 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good morning. This hearing of the House Armed 
Services Subcommittee on Strategic Forces will be called to 
order. I appreciate all the witnesses' attendance, and your 
preparation for this hearing. I know it takes time and energy, 
and we do appreciate you doing it. It makes a difference for 
us.
    Because we have got such a large panel, I and the ranking 
member have agreed we are going to dispense with our opening 
statements and submit them for the record and go straight to 
your opening statements. So, if you could summarize your 
opening statement in about 3 minutes, then that will give us 
more time for questions.
    So with that, we will start with Ms. Creedon. You are 
recognized for 3 minutes.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 41.]

 STATEMENT OF HON. MADELYN R. CREEDON, ASSISTANT SECRETARY OF 
   DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Creedon. Thank you. Good morning and it is nice 
to be back again.
    Mr. Rogers. Is your microphone on?
    Secretary Creedon. It is. It says, talk.
    Mr. Rogers. Okay, you need to pull it closer then.
    Secretary Creedon. Okay.
    Mr. Rogers. There you go.
    Secretary Creedon. Okay. Again, thank you and it is good to 
see you all again. My remarks today will highlight a few of the 
topics that are addressed in the written statement, which of 
course I would like to submit for the record. The Global 
Strategic Affairs Office leads the Department of Defense's 
efforts to develop the strategies and policies to maintain a 
safe, secure, and effective nuclear deterrent for the Nation, 
and for our allies and partners as long as nuclear weapons 
exist, at the same time, moving toward the President's vision 
of a world without nuclear weapons.
    We continue to work toward this vision, while also 
supporting the many demands of a complex global security 
environment, and assuring our allies and partners. Under the 
new START [Strategic Arms Reduction Treaty] treaty, the United 
States and Russia have made significant progress. But our two 
nations still account for the vast majority of the world's 
nuclear weapons, and for this reason our focus for the next 
stage of arms control remains, bilateral efforts with Russia. 
Although the timing and framework for the next round of these 
negotiations are not settled, we look forward to discussions 
with Russia that will address reductions in the number of 
deployed, and nondeployed nuclear weapons, both strategic and 
nonstrategic as directed in the Senate's resolution of 
ratification to the new START treaty.
    As you know, the Administration has been conducting a 
nuclear posture review implementation study to review our 
nuclear deterrence requirements, and operational plans to 
ensure they address today's threats. The analysis is not yet 
complete, but our preliminary view is that continuing 
modernization is essential, and that further reductions should 
be possible. While the details of this work are highly 
classified, the Department remains committed to sharing 
relevant aspects of this analysis with the senior leaders of 
the defense committees when the effort is complete.
    The current fiscal situation continues to put pressure on 
the entire Department of Defense. As sequestration cuts are 
implemented, and as budgetary uncertainties continue, the 
Department will make difficult decisions, and assume more 
risks. These risks, however, will not alter our prioritization 
of the nuclear mission. The 2010 nuclear posture review 
concluded that the United States will maintain a triad of ICBMs 
[Intercontinental Ballistic Missile], SLBMs [Submarine-Launched 
Ballistic Missile], and nuclear-capable heavy bombers. And the 
President's fiscal year 2014 budget request supports 
modernization of these nuclear forces.
    As Secretary of Defense Hagel stated, providing the 
necessary resources for nuclear modernization of the triad 
should be a national priority, and that remains the policy of 
this Administration.
    And, the last thing I want to touch on right now is that 
the U.S. remains committed to extended deterrence and assurance 
of our allies and partners, including NATO [North Atlantic 
Treaty Organization]--the NATO Alliance, Japan and the Republic 
of Korea. And lately, this is particularly true on the Korean 
Peninsula.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Secretary Creedon can be found 
in the Appendix on page 43.]
    Mr. Rogers. Thank you very much, Ms. Creedon. For the 
record, I should have more properly introduced her. She is 
Assistant Secretary of Defense for Global Strategic Affairs, 
U.S. Department of Defense.
    And next we will recognize General Robert Kehler, 
Commander, U.S. Strategic Command, you are recognized for 3 
minutes.

   STATEMENT OF GEN C. ROBERT KEHLER, USAF, COMMANDER, U.S. 
               STRATEGIC COMMAND, U.S. AIR FORCE

    General Kehler. Well, Mr. Chairman, thanks for the 
opportunity to present my views this morning. In today's 
uncertain and complex world, STRATCOM's [U.S. Strategic 
Command] fundamental purpose remains constant. With the other 
combatant commands, we must deter, detect, and prevent attacks 
against the United States; assure our allies and friends of our 
security commitments to them; and if directed, employ 
appropriate force to achieve national objectives if deterrence 
fails.
    Deterrence today is shaped to match the characteristics of 
specific scenarios and actors and it is pursued with a broader 
array of tools than just nuclear forces. However, as long as 
nuclear weapons exist, my number one priority will be to deter 
nuclear attack and assure allies and friends with a safe, 
secure, and effective nuclear force. To do this, my objective 
remains to field a credible New START-compliant triad of 
survivable ballistic missile submarines, responsive 
intercontinental ballistic missiles, and flexible nuclear-
capable heavy bombers that can present any would-be attacker 
with insurmountable problems.
    This force must be supported by a comprehensive warning 
system, assured command and control, and a highly specialized 
nuclear weapons complex, all staffed by a dedicated and 
experienced military, civilian, and contractor team. While it 
is appropriately smaller than what we fielded in the Cold War, 
I can assure you that today's force is safe, secure, and 
effective. However, it will not remain that way unless we keep 
the nuclear weapons complex, the delivery system modernization, 
and sustainment programs on a stable and committed course.
    I believe we have crafted and presented a sound strategy 
and implementation plan to ensure a continued credible 
deterrent in fiscal year 2014 and beyond, but the plan contains 
risk. Sequestration adds additional risk, as well as the 
possibility of further budget reductions.
    Mr. Chairman, it is a privilege to lead the outstanding men 
and women of STRATCOM. They are our greatest and most enduring 
strength. All of these amazing professionals will cope in the 
near term. I remain extremely concerned about the longer term 
impacts of fiscal uncertainty on them and their families.
    We face difficult challenges, Mr. Chairman, and I look 
forward to working with you to address them as we go forward. 
Thank you and members of the subcommittee for your support, and 
I look forward to your questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 55.]
    Mr. Rogers. Thank you General Kehler. The Chair now 
recognizes Ms. Neile Miller, Acting Administrator and Principal 
Deputy Administrator, National Nuclear Security Administration. 
Ms. Miller, you are recognized for 3 minutes.

  STATEMENT OF HON. NEILE L. MILLER, ACTING ADMINISTRATOR AND 
   PRINCIPAL DEPUTY ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Ms. Miller. Thank you Mr. Chairman, and thank you to the 
members of the subcommittee for having me here today to discuss 
the President's fiscal year 2014 budget request for the 
Department of Energy's National Nuclear Security 
Administration. Your ongoing support for the women and men of 
the NNSA [National Nuclear Security Administration] and the 
work that they do, and your bipartisan leadership on some of 
the most challenging national security issues of our time, has 
helped keep the American people safe, and enhanced global 
security.
    The President's $11.7 billion fiscal year 2014 budget for 
NNSA allows us to continue to implement his nuclear security 
agenda. As you know, we are also deeply engaged in efforts to 
realize President Obama's vision for a world without nuclear 
weapons, free from the threat of nuclear terrorism, and united 
in our approach toward shared nuclear security goals.
    Most recently in his 2013 State of the Union Address, the 
President continued to highlight the importance of his nuclear 
strategy, and pledged to, ``Engage Russia to seek further 
reductions in our nuclear arsenals, and continue leading the 
global effort to secure nuclear materials that could fall into 
the wrong hands. Because our ability to influence others, 
depends on our willingness to lead and meet our obligations.''
    His budget for fiscal year 2014, reaffirms his strong 
support for our nuclear security missions. I want to assure you 
that NNSA is being thoughtful, pragmatic, and efficient in how 
we achieve the Nation's nuclear security objectives, and shape 
the future of nuclear security. As someone with many years of 
Federal Government experience at the nexus of program and 
budget, I can tell you that while we are challenged to be 
successful in a time of fiscal austerity and budget 
uncertainty, we are also dedicating ourselves to driving 
efficiencies into our program so that we can make the best use 
of taxpayer dollars with which we are entrusted.
    And we are holding everyone, from our contractors to our 
Federal employees, accountable. Above all, we are challenging 
ourselves to reject ways of doing business that are holding us 
back from this, but which has survived long into the post-Cold 
War era, simply because they are the way we have always done 
it.
    The need to strategically modernize our facilities, 
infrastructure, and weapons systems is urgent, but so is the 
need to modernize how we do what we do. We must, and we are 
evaluating our programs and challenging the assumptions for 
everything we do, to rethink the underlying premises, and 
ensure that we are charting a path to the future that is well 
reasoned, responsible, and reflects the best way of doing 
business today.
    As the President has committed, NNSA is working to make 
sure that we have the infrastructure, weapons systems, and 
supporting science to certify the Nation's nuclear weapons 
stockpile through strategic modernization investments, and we 
are working to implement the most ambitious nuclear 
nonproliferation agenda in the world. Whether or not we were 
facing this moment's budget uncertainties and fiscal 
constraints, we have a responsibility to prioritize what we do, 
and do it in a way that makes sense, not only to us, but to 
you, to our partners at the Department of Defense, our 
international partners, and above all to the American 
taxpayers.
    If we want to see the nuclear security agenda move forward, 
then we must ensure that we have essential enabling 
capabilities, including infrastructure, to support the nuclear 
navy and strong national laboratories that are the backbone of 
the nuclear security enterprise. And we must continue to chart 
the path of nuclear security together.
    We are doing the work the American people need us to do, 
and the President's budget will allow us to continue doing that 
work. We at the NNSA are working hard to align ourselves for 
the future, and your continuing support has been a vital part 
of that.
    I again thank you for having me here today, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Miller can be found in the 
Appendix on page 78.]
    Mr. Rogers. I thank you, Ms. Miller.
    The Chair now recognizes Dr. John Harvey, Principal Deputy 
Assistant Secretary for Nuclear, Chemical, and Biological 
Defense Programs, U.S. Department of Defense.
    Dr. Harvey, you are recognized for 3 minutes.

   STATEMENT OF DR. JOHN HARVEY, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL DEFENSE 
              PROGRAMS, U.S. DEPARTMENT OF DEFENSE

    Dr. Harvey. Chairman Rogers, Mr. Cooper, members of the 
committee, I serve as the Principal Deputy Assistant Secretary 
of Defense in DOD's [Department of Defense's] acquisition, 
technology and logistics organization, we call it AT&L. AT&L 
chairs the Nuclear Weapons Council and is the Department's lead 
for engaging the Department of Energy in all aspects of U.S. 
nuclear weapons programs.
    My written statement outlines the progress we have made to 
sustain and modernize our nuclear stockpile and supporting 
infrastructure, our nuclear delivery platforms, and the nuclear 
command and control system that links nuclear forces with 
presidential authority. Congressional support for the 
President's fiscal year 2014 budget request is essential to 
continued progress in these areas.
    But I want to touch on a couple of other points. The fiscal 
year 2014 request also enables progress on a modern nuclear 
infrastructure that will eventually provide the Nation with 
capabilities to address technical problems in the stockpile, or 
respond to future adverse geopolitical challenges, and do so 
with a smaller stockpile than we have today.
    Along these lines, construction of a new facility at Y-12 
[National Security Complex] in Oak Ridge, Tennessee, is being 
aggressively pursued by NNSA to replace the existing aging and 
unsupportable facility currently carrying out HEU, highly 
enriched uranium, operations at Y-12. Budget realities, 
however, have resulted in deferral of the facility at Los 
Alamos--we call it CMRR [Chemistry and Metallurgy Research 
Replacement Nuclear Facility]--that would provide needed 
plutonium capabilities.
    In light of deferral, we are taking a step back to assess 
how best to achieve the Nation's plutonium needs, including 
exploration of a modular facility concept, which could provide 
a more flexible and fiscally affordable approach to acquiring 
needed capabilities.
    To mitigate the risk of deferral, NNSA's $120 million 
reprogramming request will help achieve an interim production 
capacity at Los Alamos of 30 pits per year by 2021, sooner than 
we would have achieved with CMRR. We urge your support for this 
reprogramming request.
    I would like to conclude by noting that the two Departments 
have strengthened their partnership in the Nuclear Weapons 
Council over the past year in advancing a shared commitment to 
a safe, secure, and effective nuclear deterrent. During the 
past year, DOD and NNSA collaborated on a joint review of DOD's 
nuclear warhead requirements and NNSA's funding options to meet 
those requirements. NNSA provided unprecedented transparency 
into its program and budgetary processes that support it.
    The comprehensive assessment led to a balanced approach 
involving some further adjustments to DOD's modernization 
schedules and some adjustments to resource allocations within 
NNSA's program.
    In a separate effort the two Departments are advancing a 
25-year baseline plan to synchronize schedules for warhead life 
extension programs, modern delivery platforms that carry those 
warheads, and initial operations for supporting infrastructure. 
Further work is under way to confirm that this baseline is 
supportable and executable over the long term.
    And let me conclude there. Thanks for the opportunity to 
speak.
    [The prepared statement of Dr. Harvey can be found in the 
Appendix on page 94.]
    Mr. Rogers. Thank you, Dr. Harvey.
    Next, we recognize Mr. David Huizenga, Senior Adviser for 
Environmental Management, U.S. Department of Energy.
    Mr. Huizenga, you are recognized for 3 minutes.

      STATEMENT OF DAVID G. HUIZENGA, SENIOR ADVISOR FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Huizenga. Thank you, Chairman Rogers, Ranking Member 
Cooper, and other members of the subcommittee. I am honored to 
be here today with my colleagues. I would like to discuss the 
positive things that the Office of Environmental Management is 
doing for the Nation and address any questions you may have 
relative to our fiscal year 2014 budget request.
    Our request of $5.3 billion for defense-funded activities 
will enable our office to continue the safe cleanup of the 
environmental legacy brought about from five decades of nuclear 
weapons development and Government-sponsored nuclear energy 
research. Our cleanup priorities are based on risk and our 
continued efforts to meet our regulatory compliance 
commitments. Completing cleanup enables other crucial DOE 
[Department of Energy] missions to continue and ensures the 
reduction of one of the U.S. Government's largest liabilities.
    The Office of Environmental Management has made significant 
progress in accelerating cleanup across the United States. For 
example, in 2009 the total footprint of EM's [Office of 
Environmental Management] cleanup sites was 931 square miles. 
As of January this year, this has been reduced by 74 percent. 
In 2012, at the Savannah River site in South Carolina, EM 
achieved a key milestone with closing two high-level waste 
tanks. Also, today EM has sent more than 11,000 shipments of 
transuranic waste to the Waste Isolation Pilot Plant in New 
Mexico for safe disposal.
    These accomplishments have been possible due to an 
outstanding Federal and contractor workforce. The safety of 
these workers is a core value that is incorporated into every 
aspect of our program. We maintain a strong safety record and 
continuously strive to an accident- and incident-free workplace 
by aggressively sharing lessons learned across our sites. We 
are training senior management and working to achieve an even 
stronger safety culture within our program and thereby ensure 
safe construction and operation of our facilities.
    In recognition of EM's improvements in contract and project 
management, earlier this year the GAO [U.S. Government 
Accountability Office] removed the bulk of EM's capital asset 
projects, and indeed, all projects with values less than $750 
million were removed from the high-risk designation. We are 
deeply committed to excellence in contract and project 
management, and intend to keep these projects off the 
Government's GAO high-risk list.
    In fiscal year 2014, we are positioned to continue making 
progress toward our cleanup goals. For example, in the Office 
of River Protection at Hanford, Washington, we will continue 
construction of the low activity waste facility, complete 
construction of the analytical laboratory, and continue to 
retrieve the single shell tanks in the C tank farm.
    At Savannah River, we will close another two high-level 
waste tanks. In Idaho, we will continue progress in treating 
the last 900,000 gallons of liquid waste and ship 4,500 cubic 
meters of transuranic waste to WIPP [Waste Isolation Pilot 
Plant]. At Los Alamos, EM will complete the processing and 
removal of 3,700 cubic meters of above-ground transuranic 
waste.
    In closing, we will continue to apply innovative cleanup 
technologies and strategies so that we can complete our work 
safely, on schedule, and within cost, thereby demonstrating a 
solid value to the American taxpayers.
    The Office of Environmental Management has made steady 
progress and with your help will continue to do so.
    Thank you.
    [The prepared statement of Mr. Huizenga can be found in the 
Appendix on page 103.]
    Mr. Rogers. Thank you.
    The Chair now recognizes, Mr. Peter Winokur, Chairman, 
Defense Nuclear Facilities Safety Board. You are recognized for 
3 minutes.

 STATEMENT OF HON. PETER S. WINOKUR, CHAIRMAN, DEFENSE NUCLEAR 
                    FACILITIES SAFETY BOARD

    Dr. Winokur. Thank you, Chairman Rogers, Ranking Member 
Cooper, and members of the subcommittee. I have submitted a 
written statement for the record describing the board's mission 
and highlighting a number of safety issues that are 
particularly important to ensuring adequate protection of the 
public and workers at DOE's defense nuclear facilities.
    I am convinced that safety is an enabler to DOE's mission, 
a mission that is crucial to the wellbeing of our Nation. I 
will provide a very brief summary of my written testimony for 
your consideration today.
    The board's budget is essentially devoted to maintaining 
and supporting an expert staff of engineers and scientists, 
nearly all of whom have technical master's degrees or 
doctorates to accomplish our highly specialized work.
    The President's budget request for fiscal year 2014 
includes $29.915 million in new budget authority for the board. 
It will support 120 personnel, the target we have been growing 
toward for several years. We believe this level of staffing is 
needed to provide sufficient independent safety oversight of 
DOE's defense nuclear complex, given the pace and scope of DOE 
activities.
    DOE and NNSA are designing and building new defense nuclear 
facilities with a total project cost on the order of $25 
billion. I cannot overstate the importance of integrating 
safety into the design of these facilities at an early stage. 
Failing to do this will lead to surprises and costly retrofits 
later in the process.
    The risk posed by the plutonium facility at Los Alamos 
National Laboratory remains among the board's greatest 
concerns. An earthquake resulting in collapse of the facility 
would likely result in very high radiological doses to the 
public in nearby towns. The board continues to urge DOE to take 
meaningful, near-term action to mitigate this risk.
    The board is also devoting considerable resources to its 
oversight of the design and construction of the Hanford waste 
treatment and immobilization plant, which is essential to the 
safe stabilization and disposal of 53 million gallons of high-
level waste stored in 177 underground tanks.
    Finally, the need to continually assess and maintain a 
strong safety culture throughout the DOE defense nuclear 
complex has emerged as an imperative for DOE, prompted by board 
recommendation 2011-1, Safety Culture at the Waste Treatment 
and Immobilization Plant. DOE has recently assessed safety 
culture across the complex and determined that much improvement 
is needed.
    Let me add in closing that the bulk of the issues that the 
board has safety concerns about are addressed at the staff 
level without any need for a formal board letter or 
recommendation. I am confident the board is working with DOE's 
liaison to the board to establish an increasingly effective 
working relationship between the board and DOE.
    This concludes my statement. I will be happy to answer any 
questions you have.
    [The prepared statement of Dr. Winokur can be found in the 
Appendix on page 114.]
    Mr. Rogers. Thank you, Dr. Winokur.
    And the Chair now recognizes himself for 5 minutes for 
questions.
    General Kehler, you and I met yesterday and discussed 
briefly the breaking news about the 17 officers who were 
decertified from alert duty at Minot. For the committee, and we 
are going to reserve judgment until the DOD and Air Force has 
made their findings, but could you tell all of us generally 
what these officers' responsibilities were and then what 
happened, to the best of your knowledge?
    General Kehler. Yes, Mr. Chairman. The nuclear-capable 
units have the highest standards and they undergo very, very 
difficult inspections. In those inspections, which are 
conducted by the Services, the inspectors look at a number of 
different categories of activities within one of these units.
    One of those categories--and each are graded separately--
one of those categories is the performance of the missile 
operations crews. These are the crewmembers that man the 
underground launch control centers, essentially. They are very 
young. They are typically second lieutenants, first 
lieutenants, captains in some cases. And again, their standards 
are very high.
    During this particular inspection which, again, was an Air 
Force inspection, not a Strategic Command inspection, as I 
understand it, there were some performance issues with that 
piece of the overall inspection that dealt with the missile 
crewmembers themselves. Typically, that is written tests, by 
the way, or they take them into a simulator and they have them 
perform their paces in a simulator. I have taken many of those 
myself over the years. They are extremely difficult and filled 
with scenarios that you typically would not see in the real 
world, so to speak.
    This has my personal attention. Because it is a nuclear 
unit, I review the inspection results of all of the nuclear 
units, both in the Air Force and the Navy as they come across 
my desk. In some cases, the Strategic Command inspector general 
observes those. They did not observe this one, but in some 
cases they do observe these.
    And so each of these gets my personal attention. This one 
in particular has my personal attention. I have spoken with the 
commander of Air Force Global Strike Command, the parent unit 
that is involved here. I have gone back and I have looked at 
the inspection results--the nuclear inspection results of this 
particular unit over the last 3 or 4 years, all of which have 
been satisfactory, by the way.
    I have asked the Strategic Command inspector general to go 
review this specific inspection and the responses to it. I 
think the unit is moving aggressively. I think you saw that in 
some of the press reporting, the very aggressive steps being 
taken here for decertification of some of the crewmembers, et 
cetera.
    I believe they are working on getting to root cause. And as 
I sit here today, I don't see anything that would cause me to 
lose confidence in that ability's unit to perform the mission 
safely and effectively. So, I will continue to watch this very 
carefully. I know the Air Force is digging into this very 
deliberately. But at this point, sir, I remain confident in 
that unit's ability to perform its mission.
    I do think they reacted very aggressively to the mistakes 
that they saw. They don't accept those mistakes. And at some 
level, I think what you are seeing here is a product of the 
increased scrutiny and the increased diligence that is going 
into these inspections and the responses to them.
    So, again, I would prefer to have a little bit more 
fidelity, I think, on what the Air Force will eventually 
discover here as they continue to dig for root causes. But 
today, I would be concerned if every unit had 100 percent 
passing. I think that would suggest to me that weren't being 
tough enough in inspections.
    So, the fact that errors were made in an inspection in and 
of themselves doesn't trouble me much. It is what are the root 
causes and what are the consequences. And again, sir, to date, 
I don't see any reason to have less than full confidence in 
this unit. But we are going to continue to work with the Air 
Force on this, and I have in fact asked my inspector general to 
work with the Air Force to make sure that we have a complete 
picture.
    Mr. Rogers. Thank you very much.
    Secretary Creedon, the fiscal year 2014 budget request by 
the President asks for $75 million for the implementation of 
New START. But it is difficult for this committee to evaluate 
whether or not that money is needed, given that we are still 
waiting on the report from the fiscal year 2012 NDAA [National 
Defense Authorization Act] on how New START will be 
implemented.
    An example, some of the funding is for an environmental 
impact study that the OSD [Office of the Secretary of Defense] 
imposed on the Air Force relative to shutting down squadrons or 
wings of our ICBMs. And we don't really know if we should do 
that or not in the absence of this report.
    Can you give us some idea as to when we get that report?
    Secretary Creedon. Excuse me, yes, sir.
    As you know, the New START treaty requires compliance with 
essential limits by February of 2018. The Department is on 
track now to ensure that the compliance with the treaty is 
achieved, and at the moment, it looks like compliance can be 
achieved with about a 6-month window to spare.
    So what is going on right now is looking at all of the 
various alternatives that are available to the Department for 
the various reductions. And each of the Services is now doing 
all of the necessary preliminary work that they would have to 
do. So that is where this money is going. They are doing 
engineering studies. They are doing the whole range of studies 
that would allow them to implement the various decisions when 
there is a decision.
    So, what we are doing is we are looking at when compliance 
has to be achieved. We are looking for the various--at the 
various options in the Services. And right now, the decision on 
what exactly that new force--the New START force structure will 
look like will be made at the end of this calendar year. And at 
that point, it will then be implemented in 2015, and that will 
then provide enough time.
    So, we are trying to fully analyze all the options, provide 
enough flexibility to make sure that we have got the right 
decision and still come into compliance with New START in 2018. 
So it is not like we are doing nothing. There is actually a 
tremendous amount of work going on and preliminary work going 
on. But it is all preparatory for the actual decision.
    So, each Service is doing what they need to do.
    Mr. Rogers. Well, we appreciate your thoughtful 
preparation, but we want the Administration to understand that 
your compliance is going to require money. And this committee 
is not going to authorize money until we get the report. So, I 
would urge you to help us get that report so we can have some 
thoughtful deliberation as to what money we should provide.
    And with that, I will yield to my friend and colleague from 
Tennessee, the ranking member, Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I appreciate the witnesses being here, and I appreciate 
your individual and collective expertise. I hate to ask the 
painful question about how sequestration will affect your work, 
but I think we need to hear from each one of you, assuming 
Congress doesn't intervene and reduce the cuts, or even give 
you minimal flexibility, what impact that would have on your 
work.
    I noted in Dr. Winokur's testimony, he was very specific, 
saying his travel budget would be cut 29 percent and your 
advisory and contract budget by 76 percent. I know it is hard 
to be that specific probably, but we need to know the impact of 
Congress on our current course, on your activities.
    So, Ms. Creedon, would you begin?
    Secretary Creedon. Well, I will take that, sir, from a 
couple of different perspectives. One is just with respect to 
the Office of Policy, which I know there is usually not much 
discussion on, but the Office of Policy is also suffering 
dramatically from the sequestration cuts.
    And so initially, the impact to our workforce, which 
frankly has been under a hiring freeze for about 3 years now, 
and so as people leave, the existing workforce just continues 
to take on more work. We are looking at furloughs later this 
month. The exact number of days is still to be determined.
    We are also looking at severely constrained travel budgets, 
which means that the Department is not adequately, in some 
instances, representing itself in various national and 
international bilateral and multilateral dialogues. So, from a 
policy perspective, this is sort of the guts of what we do. And 
so this is having an impact.
    From the larger strategic perspective, we continue to worry 
about with respect to the implementation of all of the programs 
under the cognizance, particularly of, you know, just for me--
for my Office of Space, Cyber, Nuclear Missile Defense and 
Nonproliferation, we worry about how the sequestration will 
impact all of those--from modernization to cyber to ensuring 
that we maintain our space assets in tip-top shape to provide 
the enablers that our Services need.
    So, we look at it across the board.
    Secretary Creedon. Thank you.
    Mr. Cooper. General.
    General Kehler. Sir, in Strategic Command the--
sequestration really has an impact in two dimensions. There is 
a human dimension to this, and then there is a readiness 
dimension to this.
    Let me start with the human dimension. Much like Ms. 
Creedon, our people are concerned about the budget uncertainty. 
The civilian workforce in particular--about 60 percent of my 
headquarters' workforce is Government civilians. And so, they 
have been salary-capped, they have had a hiring freeze and now 
they are facing furloughs--the possibility of furloughs.
    What I have been saying here on Capitol Hill and elsewhere 
is, these are people who are willing to take risks for their 
country, but they are not willing perhaps to take financial 
risks for their families. And, so I am very concerned that as 
we go forward here, that damage has been done to our workforce 
in the human dimension that they will not forget.
    We have gotten some anecdotal information from some of our 
new hirees who have gone through our intern program, for 
example, who tell us that they will actively pursue careers 
elsewhere. That is disturbing. I can't put a quantifiable 
number on that and tell you that the sky is falling as a 
result, but that troubles me.
    At the other end of the spectrum some of our people are 
telling us that they are--they could retire now, and maybe they 
will. So I--that is very disturbing to me.
    The second thing is readiness. The Services have had to 
implement drastic measures in their operations and maintenance 
budgets to get to the sequestration totals, even with the 
recovery that has been allowed in terms of flexibility in the 
budget for the remainder of this fiscal year, we don't see that 
immediately because they have worked very hard to try to avoid 
those strategic force issues that STRATCOM deals with.
    But, this is much like an avalanche: Once it starts, it is 
inevitable that it will continue, and we will see readiness 
reductions as time passes here. You can't go without flying 
hours the way the Air Force, for example, is having to do and 
not have that ultimately impact readiness, even while they are 
preserving as best they can, the flying hours that apply to 
STRATCOM's missions. So we--I can't take you to a unit today, 
and say, ``That unit can't perform its STRATCOM mission.'' What 
I can show you though is that the steps that have been taken, 
the drastic steps by the Services, will in fact impact 
readiness in STRATCOM, we just haven't seen it developed yet, 
but we will.
    Mr. Cooper. Ms. Miller.
    Ms. Miller. Thank you, Mr. Cooper.
    I of course echo my colleagues' comments with regard to the 
human cost of this. I would add in two pieces that are 
particularly concerning to us in the NNSA in addition to the 
toll on our Federal workers. That would be people at the 
laboratories that we depend on.
    And I would say that--and here I have to confess as a 
former budget director for DOE, I have to roll the endless 
continuing resolution uncertainty into the misery of this. When 
you have people who are working and are building a career on 
expectation of a project--whether it is a scientific project, 
an engineering project, whatever the project is--constantly 
having the rug pulled out from under them--as my colleagues 
say, people look elsewhere for a career.
    Yesterday morning, I--together with my colleague, Mr. 
Huizenga--met with people from one of our communities in one of 
the States. And, I have to say, I think the comments we heard--
these were business leaders, presidents of chambers of 
commerce, small business owners--were frankly shocking at the 
effect this is already having on individuals who don't actually 
work for us, but are connected to the community.
    So now having left--putting the people to one side for a 
moment, we have just finished talking about a program of work 
that we have worked diligently with all of us together in the 
nuclear security community to put us on a healthy path going 
forward for this stockpile, for the infrastructure, for force 
structure.
    These are projects that are, as everybody notes, very 
expensive projects. And the longer we are put into uncertainty, 
money is cut, the plans that you have laid for a project are 
completely thrown out the window. It should come as certainly 
no surprise to anyone, this will not only undercut the view 
that the stockpile is healthy in the long run, but it will 
undercut the cost that we are quoting today as soon as we say 
it, it is probably not true anymore, because people who have 
been counting on a certain amount of money just don't have it. 
So that is of concern in many directions.
    Mr. Cooper. Dr. Harvey.
    Dr. Harvey. The Nuclear Weapons Council is about to--at the 
request of the Congress--issue a document, a letter reaffirming 
that the Nuclear Weapons Council believes that the President's 
budget will, if funded, will meet the Department of Defense's 
requirements for nuclear----
    Mr. Rogers. Dr. Harvey will you pull the microphone closer 
to your mouth, please?
    Dr. Harvey [continuing]. Will reaffirm that the President's 
fiscal year 2014 request will meet the Department of Defense's 
modernization requirements and needs at acceptable risk.
    Sequestration is not factored into that assessment. Any 
activity in sequestration that would delay or slow down a life 
extension program, or that would delay or slow down activities 
under way to restore an infrastructure that will enable--that 
carries out the work on those life extension programs would be 
of concern and would introduce additional risk into our 
assessment.
    And, that is basically what I would say on that.
    Mr. Cooper. Mr. Huizenga.
    Mr. Huizenga. Yeah, I would like to echo what Administrator 
Miller said. We have direct impacts on our program. Several 
thousand of our contractor employees and workforce are 
currently either being--have been laid off or on furlough. So 
the--we have these direct impacts to those folks and their 
families, and equally importantly we are slowing down our 
cleanup mission. So it is important for us--and I appreciate 
the committee approving our reprogramming. We are trying to 
mitigate the impacts of the sequestration and the continuing 
resolution through this reprogramming effort. But, the bottom 
line is, things are slowing down.
    Mr. Cooper. Dr. Winokur.
    Dr. Winokur. Well, to put this in context to the board, we 
are two-tenths of 1 percent of DOE's budget in the defense 
nuclear area that we oversee, so obviously these cutbacks are 
important to us.
    You mentioned travel. We are going down by 29 percent. 
There are no defense nuclear facilities in Washington, D.C., so 
when we can't travel it has an important impact on us.
    In the contract area, I mentioned in my spoken testimony, 
we hired very specialized people to do concrete work, 
structural work, different kinds of analysis for us, and we are 
not gonna have them, but it also represents an opportunity cost 
for us. Things come up all the time. The board, to some extent, 
is reactive. There may be leaking tanks at Hanford where we 
need to form teams. There may be redesigns at the uranium 
processing facility or the uranium capabilities replacement 
project where we have to form new teams.
    We found out recently that public hearings have been 
incredibly beneficial to us in terms of focusing issues through 
the Department, and resolving issues and defining a path 
forward. So there is a lot of opportunity cost we won't have as 
our budget is cut, and that is gonna make it difficult for us 
to provide the kind of oversight we would like to provide.
    Mr. Cooper. Thank you, Mr. Chairman, I see that my time has 
expired.
    Mr. Rogers. Thank the gentleman. Chair now recognizes the 
gentleman from Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman. And, thank all 
of you for being here.
    General Kehler, if I could go to you first sir. First let 
me just thank you for your service, the assets and the command 
that you oversee are vital to--not only to deterrence--to 
capability of this country, but it is a stabilizing force in 
the world, and I am grateful that such a profound 
responsibility rests upon the shoulders of someone as committed 
to human freedom and the cause of America in general, as you 
are, sir.
    Let me, if I could, just suggest that all of us are 
interested in making sure that our network and energy 
infrastructure is positioned to respond and recover if we are 
ever faced with an attack on our homeland. And in your 
testimony, you say we must, ``Continue to improve the 
protection and resilience of our networks.'' And I certainly 
agree with you completely.
    Can you outline for us the significance of these networks 
and communication systems to the work that you do every day for 
our Nation, and perhaps specifically discuss what improvements 
you think need to happen now and what protections we need in 
the future to stay ahead of our enemies?
    And please share with us the efforts STRATCOM is making to 
prevent effects of whether it is an enemy intrusion or 
cascading grid collapse or EMP [Electromagnetic Pulse] or GMD 
[Geomagnetic Disturbance] concerns or just natural disasters in 
general.
    That is a lot to take in, but just the security of our 
networks in general, and the importance of what they do and 
what we are doing to make them impervious to some of these 
things.
    General Kehler. Yes, sir. First of all, the network is our 
central nervous system for the entire military establishment. 
We use our military in ways unlike any other military in the 
world gets used, and that is because we are able to network 
ourselves. We are able to surveil parts of the planet from 
space and network that information back to our forces. We are 
able to operate in smaller contingents forward that can act 
like a larger force, because they are networked together. So, 
the networks are critically important to us, and really--it is 
a trite way to say it, but it really enables the American way 
of warfare.
    As a result of that, of course, potential adversaries are 
looking for ways to find vulnerabilities in that network and 
disrupt our ability to do the things with the network that we 
do today. So, I am charged, as part of my responsibilities, 
along with our sub-unified command, U.S. Cyber Command, to 
protect all of those networks. Some of them are especially 
critical to today's subject, the nuclear command and control 
system for example, which as Dr. Harvey described, links the 
President and his authorities to the nuclear forces.
    So we have undertaken a series of reviews, to take a hard 
look at various parts of our network while we are moving with 
U.S. Cyber Command to put in place better protective measures 
today. We have looked individually at many portions of our 
networks. We have begun a more comprehensive end-to-end review 
of our networks, and I can tell you that in places where we 
find vulnerabilities, we address those as quickly as we can. I 
think that the nuclear command and control system today, I am 
very confident that that system is resilient and resistant to 
the kinds of network intrusions that we might see in our 
administrative networks, for example, where we know that we 
have some significant issues to go address.
    But we are addressing all of these. The network disruptions 
that we might see take a lot of forms as you described. 
Electromagnetic pulse and people view that as a Cold War relic. 
It is not a Cold War relic; it is a potential that we could 
face in the future. And we have got to make sure that in our 
most critical networks that we are capable of operating through 
them. So this is a combination of engineering, it is a 
combination of information assurance, steps that we take for 
tactics, techniques, and procedures. It is a matter of 
encryption, and encoding. It is a matter of full range that we 
can bring to bear while we continue to dig to make sure with 
red teams and elsewhere, that we understand what our own 
vulnerabilities are.
    Mr. Franks. Well, thank you, General. I am glad you are on 
the job.
    Ms. Miller, I might direct my last question to you. The 
fiscal year 2013 enacted levels funded infrastructure, energy, 
security, and energy restoration programs at approximately $6 
million in fiscal year 2013. The fiscal year 2014 President's 
budget requests $16 million, and if you can explain to me what 
this program does--and all of us. And why it got this increase 
in funding, and what that is used for? Is that used for any 
things that the General just described?
    Ms. Miller. Thank you, Mr. Franks. Unfortunately, I believe 
that activity that you are talking about is funded within the 
greater Department of Energy, that is an energy program. And 
while I might have been able to answer it a few years ago while 
I was still the agency's budget director, I am afraid it is out 
of the NNSA, and I am not aware of it.
    Mr. Franks. Mr. Chairman, would there be anyone on the 
committee that could--or the panel that could answer a question 
about the infrastructure security and energy restoration 
programs?
    Mr. Rogers. No.
    Ms. Miller. No, we can----
    Mr. Franks. All right.
    Ms. Miller [continuing]. We can certainly send it back to 
the Department and get that answered for you though, for the 
record.
    [The information referred to can be found in the Appendix 
on page 139.]
    Mr. Franks. That would be great. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    The Chair now recognizes Mr. Veasey, for 5 minutes for 
questions.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to direct my questions to General Kehler and 
Secretary Creedon about START. And does New START remain in 
U.S. interests? And why, if you could elaborate on that?
    Secretary Creedon. It does, very much so. We know that 
Russia is modernizing its nuclear forces. And as we look into 
the future, it is very important that we maintain a--very much 
of a strategic balance with Russia. So, what New START does, is 
New START ensures that there is a clear, verifiable, 
identifiable cap on all of the delivery systems, and all of the 
deployed strategic warheads.
    So as we look into the future, having this cap, having this 
ability to understand through the verification methodologies of 
the treaty, not only what, but how much Russia is doing, is 
extraordinarily important to maintaining the strategic 
stability. So it absolutely does remain in our interests in the 
long term.
    Mr. Veasey. General.
    General Kehler. And, sir, from my perspective, from a 
military perspective, reducing the potential threat in a way 
that is verifiable and stable is a very good thing from my 
perspective, and is certainly in our national interest.
    Mr. Veasey. What would be the risk of limiting funding for 
fiscal year 2014?
    Secretary Creedon. Well, one of the immediate impacts is 
the Services would stop their planning, and their planning 
efforts now are what are going to enable us to come into 
compliance with the treaty. So if we don't have the planning 
efforts that set us up for the situation of not being in 
compliance with the treaty, that would be frankly a very bad 
thing. The U.S. has really focused on maintaining its ability 
to comply with these treaties.
    The flip side is it might do damage to how the Russians 
feel about this as well, and as the committee is very much 
aware, having the ability and having the verification 
methodologies and the inspection regimes under this treaty is 
hugely important to our knowledge of what the Russian--of what 
Russia is doing with respect to its strategic modernization 
program.
    So you know we need to continue to plan. We need to 
continue to shape the environment to allow us to come into 
compliance, and without this money, frankly we have come to a 
screeching halt.
    Mr. Veasey. Could further nuclear weapons reductions 
increase U.S. security?
    Secretary Creedon. That is actually something that we are 
looking at right now. But it is not an issue that is resolved 
yet. So it depends on what the global strategic environment 
looks like. It depends on what new guidance is issued. But we 
believe there is an opportunity for future reductions. Exactly 
the how, and the numbers, and the context, is something that we 
still need to work on. And I--let me just make one 
clarification of the statement with respect to the funding for 
New START.
    I mean some of this money also goes to the whole inspection 
regime. And both sides, both the U.S. and Russia have taken 
full advantage of their annual inspections. So even funding 
these inspections is hugely important to our knowledge.
    Mr. Veasey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. And I appreciate the fact that things will come 
to a grinding halt if you don't get the money. So please get us 
the report so we can try to provide you the money.
    The Chair now recognizes the gentleman from Florida, Mr. 
Nugent, for 5 minutes.
    Mr. Nugent. Thank you, Mr. Chairman.
    And continuing along the New START discussion, and this is 
directed to General Kehler, you know I have some questions 
about the reduction, the number of nuclear warheads under the 
New START treaty, and potentially the reductions beyond the 
treaty. But which has a bigger impact on our ability to 
maintain a credible deterrence? Reductions in warheads? Or 
reductions in delivery vehicles? And why?
    General Kehler. Sir, let me take your question on this way, 
and if I am not on the mark, correct me to 100 percent, please. 
But let me start with, we base our force numbers on a strategy. 
And so, we don't start with numbers, we start with a strategy. 
And so under the New START ceilings, we are capable of meeting 
our deterrence needs today, the objectives that are levied on 
us for deterrence and for objectives if deterrence fails. And 
so that is a mixture of ways we do that.
    One is an overall warhead number, and then there is a 
question about how we would configure our force in order to 
deliver those warheads. What is best for us in terms of the 
proper blend of survivability, flexibility, and responsiveness. 
And so, when you say what is most important or what is the best 
way to go forward?
    What I would say is, my contention remains that certainly 
at the New START level, we would want to retain a balanced 
triad of some kind. So that shapes the number of and types of 
delivery vehicles that we would have.
    Beyond that, in terms of opportunities that might arise in 
the future for further reductions, I would continue to argue 
that that would be based on a strategy, a strategic approach. 
And then we would have to find the right blend of numbers of 
warheads and the delivery systems that keep that mixture of 
survivability, flexibility, and responsiveness.
    I am not sure I got at your question, though, sir.
    Mr. Nugent. I think you did partially. It--the question 
obviously was, you know is there a particular--and you--I think 
you hit on it, there is a blend between the number of warheads 
and the number of delivery vehicles--and I don't expect you to 
give me a specific answer at this point in time. But I want to 
make sure that, you know, for our allies, that they perceive 
that we are also looking out for them in regards to how we 
protect--or project.
    General Kehler. Yes, sir, I clearly understand what you are 
saying now. And yeah, I couldn't agree more. Really, the role 
of these weapons today is deterrence and assurance. We assure 
our allies though our ability to provide extended deterrence. 
We demonstrated some of that here over the last month, as a 
matter of fact, in our exercises.
    And certainly I can allow Ms. Creedon to step into the 
policy world here, but our responsibility is to be able to 
provide the President with forces and options that can both 
deter adversaries and assure allies. And that factors into the 
mixture of forces, the types of delivery vehicles, that we 
would want to retain.
    Mr. Nugent. And General, you hit on the triad, I think, 
which is an important part of our nuclear deterrence. But last 
year, there was a SLEP [Service Life Extension Program] in the 
scheduled number of Ohio class replacement submarines, that we 
are only going to have 10 of those operational ballistic 
missile submarines for much of the 2030s. Is that number of 
submarines sufficient to keep that triad in place?
    General Kehler. Sir, I believe that number is certainly 
sufficient to keep the triad in place. I think the ultimate 
number of submarines that we procure is still an open question. 
I think you are referring to an issue about how do we manage 
the transition from the current Ohio class to the new 
submarine? And that is a time period that we are going to have 
to watch very carefully, which I would suggest argues for why 
you want to have a viable triad if in fact we are going to put 
fewer submarines at sea, then we would like to be able to 
compensate for that in other ways.
    But we are still in a time period here where that 
transition we are looking at very carefully to see if we can 
manage that differently.
    Mr. Nugent. Does that number of submarines meet STRATCOM's 
need?
    General Kehler. Well, the need that we put on the table was 
for 12. And it remains to be seen--the biggest issue right now, 
from my perspective, is commit to a submarine, a replacement 
submarine for Ohio. We will get to a date-certain that the 
current class of Ohio submarines, due I am told by the Navy, 
due to metallurgy issues, we will have to retire them. And so, 
it is important for us to commit to the program. I think you 
have a lot of time here to decide how many submarines we 
eventually deploy.
    Mr. Nugent. All right. I appreciate it. And I want to thank 
this panel for being here today to answer our questions.
    And with that, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Indiana, Mr. 
Carson, for 5 minutes.
    Mr. Carson. Thank you, Mr. Chairman.
    Madam Miller, does the NNSA have sufficient funding for 
weapons activity in fiscal year 2014 in the budget request?
    Ms. Miller. Yes, Mr. Carson. The President's budget 
adequately funds all of the activities that we need to fund 
through the weapons activities account, including defense 
programs and the programs that we have to meet the requirements 
for the Department of Defense.
    Mr. Carson. Yes, ma'am.
    General Kehler, many of our most vocal nuclear reduction 
advocates have essentially argued that we could reduce our 
nuclear stockpile below the level set in the New START Treaty 
while maintaining a sufficient deterrent.
    How closely aligned do we need to stay with Russian 
stockpile numbers to maintain an effective nuclear deterrent? 
And how do you believe that there is any likelihood that Russia 
might similarly make a unilateral reduction in its stockpile 
below the level set in the New START Treaty?
    General Kehler. Sir, I will defer the second part of the 
question about the likelihood of Russia to Ms. Creedon, if that 
is okay with you.
    On the former question about how many weapons we think we 
need for deterrence and assurance, again, I would go back to 
this has to do with the strategy. And eventually, a strategy 
resolves itself into a set of military tasks that STRATCOM is 
asked to perform with those weapons if the need should ever 
arise.
    That is what drives the size of the force. And today, we 
can accomplish our objectives with the New START force. We are 
above that level right now. We are on our way down to that 
level. That will take another several years, as you heard just 
a moment ago. But we are on our way to that number.
    Beyond that, I think STRATCOM has been participating in a 
series of reviews to take a look at what a future arms control 
structure might look like based upon various strategic 
approaches. In my view, we have had a very successful way to do 
this in the past. It has been--we have done it with the 
Russians, we have done it in a verifiable way, and that has 
resulted in, I think, increased stability for all of us.
    And because of that, I think, like the nuclear posture 
review said, that it is important for us to not have exact 
numeric parity with the Russians. But I think we need to have 
relative approximation of that parity with them. Parity is, a 
lot of different features to parity. One is technical 
capability or capacity as well. But I think that like the 
nuclear posture review suggested, that having some rough parity 
with them, although it doesn't have to be exact, I think that 
is still a good way to go forward.
    Mr. Carson. Thank you, General.
    Mr. Chairman, I yield back my time.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Secretary Creedon and Dr. Harvey, I understand that DOD's 
Cost Assessment and Program Evaluation office, or CAPE, has 
been tasked with carrying out an assessment of the potential 
savings, risks, and hedges that would be involved in moving 
from our nuclear triad to a nuclear dyad. Basically, this would 
be assessing the impacts of eliminating one leg of our triad.
    Can you confirm that CAPE has been tasked with conducting 
this analysis?
    Secretary Creedon. Sir, as both the Secretary and the 
Deputy Secretary have announced, the Department is going 
through an exercise to look at what the potential effects of 
further reductions would be on the Department. So it is a 
broad-ranging, far-reaching review of any number of different 
options.
    And so, CAPE has not been tasked to do a specific thing, 
you know, in the sense of reduce here, don't reduce there. It 
is more of an across-the-board exercise with different teams 
and different categories, looking at a huge variety of 
different options.
    And so, in any one of these exercises you tend to want to 
put options on the table that range from little to great big 
and dramatic. And so, in each of these teams, they are putting 
on the table options that are little to really dramatic. And 
what the end result of this will be is still to be determined.
    And in the end, the Secretary is going to have to make the 
decision. But this whole exercise is really trying to wrestle 
with how bad would certain levels of cuts impact the 
Department. So you know, this would be something that they 
would assess in the range from little to really substantial.
    Mr. Lamborn. So that would be one of the options that the 
team is going to look at? Is that what you are confirming to 
me?
    Secretary Creedon. No, sir, I am not actually confirming 
that. But what I am trying to say is that wouldn't be out of 
the realm of possibilities. So I mean if you look at something 
really little, and you look at something really big, reducing 
one of the legs of the triad would be something that would be 
really big.
    So it would be--I am going to say something that is going 
to sound strange--it would be a reasonable option to look at, 
even though it is completely contrary to the Department's 
policy and to the NPR [Nuclear Posture Review], which says 
maintain a triad. So when you do one of these exercises, you 
have to look at ways I think that are uncomfortable and that 
are awkward and that are not even consistent with policy. But 
to really put everything on the table, this is the sort of 
exercise that the Department goes through.
    Mr. Lamborn. Well, I am concerned that there might be some 
folks who are philosophically in tune with that kind of 
decision. I mean, I am totally opposed to that, and I imagine 
most of us here are. So I don't even see the value of going 
into a place that is so far removed from what common sense 
should dictate that we do.
    Secretary Creedon. And though that is in fact the policy of 
the Department, one of the sad situations now that the 
Department faces with the looming cuts, with sequestration, 
with possible cuts, we are in fact going through an exercise 
that looks at things that nobody wants to do. And that is just 
the reality of the fiscal constraints that are put on the 
Department right now.
    Mr. Lamborn. Well, I am just going to be on guard for 
someone using the excuse of budget cuts to do things that are 
really bad policy.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you.
    Perhaps it is opportune that I get to follow my colleague 
on that question. I think the major point is that we ought not 
be ignorant of all of our options, and we ought to be studying 
do we really need a triad for deterrence against whom.
    And so we ought to know those things, and I would encourage 
the Department of Defense to continue to study and to provide 
the Congress with a set of options--full set of options--triad, 
duad--and tell us as best you can what the implications are for 
a dual deterrence rather than a triad--or maybe we do need a 
triad.
    Let us understand that it is extraordinarily expensive. All 
of the nuclear weapons that are in the current stockpile, the 
life extension program of all of those, do we need all of 
those? Do we need--what number of each of the various kinds of 
weapons that are available and the delivery systems and, as the 
general said, the strategy or the strategic interests, and then 
from there comes the result.
    But I don't want to be ignorant. I want to have as much 
information as I possibly can and to have the wisdom of options 
that have been thought through by the various and the best 
thinkers that are in the military and in the diplomatic arena. 
So Mr. Lamborn, let us have information.
    With regard to specific information, I have some very 
serious questions about the plutonium stockpile that we have 
and the disposition of the plutonium stockpile. So Ms. Miller, 
perhaps this is in your domain. There is a--in the President's 
budget some changes as to the disposition of the plutonium 
stockpile.
    Could you explain the Administration's position with regard 
to that, and specifically as it relates to the budget proposed 
by the President.
    Ms. Miller. Yes. Thank you, Mr. Garamendi. I think you are 
probably referring to the program to disposition 34 metric tons 
that was declared in 2000 to be excess of our weapons needs.
    Mr. Garamendi. That is correct.
    Ms. Miller. The program of record to disposition that 
material in the United States has been to--this is a program we 
were involved with in a treaty with Russia. They have declared 
similar amounts. Same amount excess on their side. We all 
agreed to disposition.
    The program of record in the United States has been to 
fashion that plutonium into mixed oxide fuel to be burned in a 
nuclear reactor to provide energy. This entails the 
construction of a couple of facilities, the largest of which is 
the mixed oxide--mixed oxide fuel in the MOX Fuel Fabrication 
Facility in Savannah River, South Carolina.
    And the budget, as you indicated, does, for 2014, does show 
a strong change in that. That program, as I am sure you are 
aware, is a very costly program and unfortunately has only 
grown more costly over time. And in an echo of everything I 
think my colleagues and I have been talking about this morning, 
the budget situation we find ourselves in has required us to 
take a second look at everything that we have got on the table. 
And that is what the budget is doing.
    Mr. Garamendi. I really need to get into this in great 
detail. I know Mr. Wilson at the other end of this dais is very 
interested in it. Is there a customer for the mixed oxide 
fuel--for the oxide fuel that is supposed to be produced by 
this facility?
    Ms. Miller. There are no signed contracts of customers 
currently.
    Mr. Garamendi. Are there alternative ways of disposing of 
the--or handling the plutonium stockpile?
    Ms. Miller. There may be, and that is what the budget 
declared is that we are taking a pause in the construction of 
that facility now that we are facing essentially double the 
cost of--just for construction--than we had expected. We are 
going to spend the coming year looking to see whether there are 
options, what are the options, including the current option, 
and what makes the best sense for the budget and for this 
program going forward.
    Mr. Garamendi. So you would be considering options such as 
the--turning the plutonium into a metal fuel?
    Ms. Miller. I think we are going to keep all options that 
will allow us to both obviously safely and securely disposition 
that material and, under the terms of the treaty, meet the 
requirements that we have agreed to. We will be looking at all 
options.
    Mr. Garamendi. Well, my time is expired. But much more 
discussion needs to be spent on this, and I am sure Mr. Wilson 
would agree that we need to really look at this whole thing in 
great detail. I yield back what is no time left.
    Mr. Rogers. I thank the gentleman. Chair now recognizes the 
gentleman from Louisiana, Mr. Fleming, for 5 minutes.
    Dr. Fleming. Thank you, Mr. Chairman.
    And General Kehler, great to see you again. Thank you for 
what you are doing for Strategic Command, Air Force, and 
certainly Global Strike Command, which is headquartered in my 
district.
    I want to revisit a subject that we have talked about 
before. That is weapon storage areas, the WSAs. And I know in 
last year's NDAA, the committee encouraged a relook into the 
WSAs with cost estimates on recertification.
    You indicated earlier this year that you had recently met 
with General Kowalski, commander of Global Strike, to discuss 
nuclear security and future WSA analyses. When should the 
committee expect to see a STRATCOM report assessing our 
Nation's nuclear weapons storage areas with cost estimates for 
recertification?
    General Kehler. Sir, I will have to get that for the 
record. I don't know off the top of my head.
    [The information referred to can be found in the Appendix 
on page 140.]
    Dr. Fleming. Okay. The reason why I reflect upon this, of 
course, is from the Schlesinger's report and other things that 
have followed on, it is important that we at least to some 
degree decentralize our nuclear weapons that are ready for 
delivery. And having them all in one location as we do with the 
bomber fleet, obviously makes it a little bit easier solution 
to problems of our potential adversaries.
    But on the other hand, I recognize there is cost to 
recertifying more WSAs. But as I understand it, there may be 
some better technologies going forward that may make this a 
less expensive choice. So I thank you for that.
    Let's revisit--this is for General Kehler and also 
Secretary Creedon. Let's revisit the nuclear triad we were 
talking just a moment ago. You know, a report just came out 
that $26 billion was spent over the last 4 years or so for 
green energy. And if you look at the yield of jobs, it comes to 
$11.45 million per green job created.
    To me, that is not a very good investment. On the other 
hand, since 1945, our strategy of peace through strength with 
nuclear deterrence, nuclear assurance, to me has been the best 
investment that we have ever had. We have prevented another 
nuclear war, another world war, if you will.
    And talk that we are beginning to hear that we may 
unilaterally go down to zero nuclear capability or take a triad 
down to two legs or one leg of the stool I think makes us a 
little worried. And I have spoken to experts in SCIFs 
[Sensitive Compartmented Information Facility] offline about 
this, and they agree that anything that we do to take this from 
a three-legged stool to a two or a one really solves the 
calculations and the strategy of our potential foes, and that 
it would be a very bad idea to do that. So not only should we 
have a nuclear triad, but we should make sure that all three 
legs are strong. So I would like to hear from both of you where 
you stand on the nuclear triad, its importance.
    We look at some investments in the future. The long-range 
strike bomber, which at its earliest won't roll off the 
assembly line for another 12 to 15 years. What is your belief 
and what is your feeling based on your discussions, your 
research?
    Secretary Creedon. Let me take this from a policy 
perspective, and then General Kehler----
    Dr. Fleming. Could you get a little closer to the mic?
    Secretary Creedon. Sorry. From a policy perspective, and 
then General Kehler can look at it from an operational 
implementation. So from a policy perspective, I couldn't agree 
with you more.
    I mean, a triad is what we absolutely need. It is what the 
nuclear posture review says, and it is what is fully funded in 
the President's budget request for fiscal year 2014.
    There are modernization programs in place for every one of 
the delivery platforms that we have right now. The one 
exception is the Minuteman III, under which the Air Force is 
still looking at an analysis of alternatives because that is 
the one that we have a little bit of luxury of time to when we 
actually have to have a new system in place. But from a policy 
perspective, that is the policy. That is the strategy, is to 
maintain a triad. And we have not changed that.
    Dr. Fleming. Okay. Thank you.
    General Kehler. And from a military standpoint, 
Congressman, I continue to support a triad. It does in fact 
provide the best blend of survivability and flexibility and 
responsiveness. Those are military attributes that are not only 
beneficial to us, but typically very difficult for an adversary 
to overcome.
    I would add that we don't talk about this as much, but it 
is equally important, that is the command and control system 
that links the President to it. There are some deficiencies 
there as well that we are also addressing in the budget. And I 
would be quick to point out that the final piece of this is the 
work that the Department of Energy and NNSA do for us in the 
stockpile, which is equally critical.
    And so, all of these pieces together I think have come to a 
place where they require investment at a very difficult time 
for investment. And the program that we have put together, many 
of us at the table have worked pretty hard over the last year 
to try to come up with an implementation plan that goes with 
the strategy for a way forward. And I think that we are laying 
it here.
    The question will be as we go forward: what will the 
outcome be? And I think that that is a significant question for 
all of us. But I continue to support the triad as a matter of 
best military advice.
    Dr. Fleming. Well, I thank you, as I yield back, and just 
to add onto that is simply that in a world in which more 
nations, not fewer, are putting together their nuclear weapons 
infrastructure, and potential foes are modernizing theirs, this 
is not a time to diminish ours.
    I thank you and yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you all for being here.
    And Ms. Miller, Mr. Huizenga, I appreciate you met with 
representatives, community leaders--and Ms. Miller, you 
referenced it--from North Augusta, from Aiken, from Barnwell, 
from Augusta, Columbia County--really significant community 
leaders from South Carolina and Georgia who felt like it was a 
very productive meeting. So, thank you for that, and staying in 
touch.
    And Mr. Huizenga, I particularly appreciate your office 
working to get the currently impacted employees at the Savannah 
River Site back to work. I know that you and your staff have 
been diligent in this endeavor, and I greatly appreciate you 
addressing the 20-percent pay reduction, while promoting 
national security.
    One thing has become very clear during the reprogramming, 
and that is that we need a budget, not another continuing 
resolution for 2014. After analyzing the President's proposed 
budget, I have a couple of questions, Mr. Huizenga, and that 
is, first, I was pleased to see that the site risk reduction 
and management operations line for SRS [Savannah River Site] 
was increased by approximately $90 million over last year's CR 
[Continuing Resolution].
    Given the important missions of this line item, such as 
down-blending of highly enriched uranium and preparing 
plutonium as feedstock for the mixed-oxide fuel fabrication 
facility, I believe the increase is fully justified. However, I 
am concerned as to why the Department would fund these 
operations and then reduce the radioactive liquid tank waste 
stabilization and disposal line item, which funds the tanks 
that receive the canyon's waste streams, by almost $200 
million.
    Concerns have been brought to me that the tanks will not 
have adequate funding to receive the waste streams created by 
the results of the work that will be undertaken at H Canyon and 
HB Line if they are funded at the President's proposed level.
    Moreover, it is, to the best of my knowledge, that one of 
the H Canyon's major missions for fiscal year 2014 will be to 
prepare plutonium for the MOX facility. With the President's 
suggestion to fund MOX at a lower level for fiscal year 2014 
and possibly abandon it altogether in the outyears while new 
alternatives are being studied, I would like to know the 
rationale behind adequately funding the canyon, then slashing 
both its waste stream and recipient in the program that much of 
the work would be going toward.
    Mr. Huizenga. Thank you, Congressman. I can assure you that 
that biomass facility that we commissioned down at the site is 
still efficiently and effectively producing steam and 
electricity.
    Mr. Wilson. And the world should know about Ameresco and 
that success story, so please let everyone know.
    Mr. Huizenga. Thank you.
    Relative to the H Canyon and the high-level waste 
facilities, I can tell you I spent a fair amount of time 
talking with the people at the site to try to understand this 
issue myself. The bottom line is the budget caps in the 050 
account this year made us have to look across the complex and 
make some tough choices.
    And I think we have come up with a balanced approach at the 
moment which allows us to run the H Canyon, to support the 
nonproliferation mission of blending down HEU and also 
supporting the MOX feed, and at the same time run the liquid 
waste campaign. I know that they are looking to provide some 
additional efficiencies, and I don't want to deny the fact that 
there are some challenges there. And over the next few months, 
we are going to have to continue to work with them to make sure 
that we don't have, you know, one part of the facility 
operating and the other not being able to support it.
    Mr. Wilson. Well, thank you very much.
    Ms. Miller, I enjoy working with Congressman Garamendi on 
different issues such as SMRs--small modular reactors. I want 
you all to have a good attitude on that. And--but in regard to 
the mixed oxide fuel fabrication facility, this does--it is 
very important for us to comply with the nonproliferation 
agreement with the Russian Federation, and additionally the 
environmental significance of this.
    And in regard to contracts, in the trade, it is not 
uncommon for contracts not to be signed until late in the 
process. And there are customers for the fuel that I believe 
should be produced. But I am concerned that alternatives--what 
are the alternatives? And why weren't--and in consideration of 
other alternatives, why was MOX chosen in the first place?
    Ms. Miller. So, let me, if I can, Congressman, take the 
second part of your question first.
    MOX was chosen as a way to get agreement with the Russians 
when this document or the treaty was originally signed, because 
at the time, the two major pathways for this plutonium, for the 
disposition of it that we looked at, was the creation of MOX, 
of mixed-oxide fuel, or the immobilization of this plutonium in 
some sort of materials--ceramic or glass, but immobilization 
and then disposal in the ground.
    The Russians felt very strongly that the material had an 
energy value to it that they were not willing to just bury. So, 
that concern that we work together with the Russians on the 
same approach, which we thought at the time might be more cost-
effective and be a better way of going forward, led the United 
States to go the MOX route as well.
    As I think you know, the Russians made some changes in 
their approach over the years. They are still making a mixed 
oxide fuel, but no longer for light water reactors. Our plant 
and program were meant for light water reactors. And of course, 
we have seen stops and starts on the Russian side.
    So, the answer to that second part.
    On the first part of what the alternatives are that are 
being looked at, I think we are talking still in the same 
general direction, in addition to continuing to look at the 
option that we are pursuing, which is MOX. We will look at 
other--at ways to immobilize the material and disposition it in 
a way, as I said before, that still meets the requirements of 
the treaty obligation, but if it can be done in a less 
expensive way, we need to understand that.
    Mr. Wilson. And I look forward to working with you on that. 
Thank you very much.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes himself for a second round of 
questions.
    Oh, Mr. Johnson has come in. I recognize him for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Good morning, ladies and gentlemen.
    General Kehler, multiple provisions of the House version of 
last year's National Defense Authorization Act would have 
constrained and even blocked the Pentagon's ability to 
implement the reductions required by the New START treaty. What 
would be the consequences for U.S. national security if the 
United States' implementation of the treaty were to cease? And 
also, how would Russia react?
    General Kehler. Sir, if I could sort of take the military 
part of that first, and then Ms. Creedon might be better able 
to handle the policy part.
    Our belief is that we should continue with our preparatory 
actions and be allowed to continue with sizing the force to get 
to the New START limits. It is a signed, ratified treaty, and 
our concern is always that we don't find ourselves in the 
position where we are the reason for why we don't meet an 
implementation date that the Nation has signed up to. So, in my 
view, we need to continue to go forward.
    Now, all the decisions on force structure and how we are 
going to do that aren't yet made. And, so as Ms. Creedon 
described earlier, there are some open questions yet about how 
we intend to structure the force, but preliminary steps are 
under way by both the Air Force and the Navy. There are things 
that we are doing today to get down to the New START Treaty 
levels, and we intend to do that in compliance with what the 
Congress has told us we have to comply with.
    Secretary Creedon. And from a policy perspective it is--
this treaty is very important, because among other things it 
allows us to maintain a strategic balance with Russia. So as 
the policy has said, absolute parity is not essential, so 100 
and 100 is not necessarily essential, big disparities would 
have a substantial impact on our stability relations with 
Russia.
    And, right now, between the U.S. and Russia, the two of us 
still have by far and away the bulk of the nuclear weapons in 
the world. So ensuring the transparency, ensuring the bilateral 
reductions, ensuring that we go forward in this together hand 
in hand is important. This treaty also allows us transparency, 
verification that we wouldn't have without this treaty, which 
is hugely important so that we understand what Russia's doing. 
So there are many aspects of this treaty that really are 
absolutely essential.
    Mr. Johnson. Thank you.
    Most experts agree that national defense spending is slated 
to decrease below the initial $487 billion reduction scheduled 
to be implemented over the next decade with or without 
sequestration.
    If the Air Force acquires a new ICBM, procurement would 
likely begin in fiscal year 2025, and would overlap--according 
to current plans with the Navy's SSBN(X) [Ohio class 
replacement ballistic-missile submarine] program and also the 
Air Force's new long-range strike bomber program--is it 
affordable or desirable to attempt to replace all three legs of 
the triad at the same time?
    And this would be for any of you who choose to respond.
    Secretary Creedon. Well, first let me just agree with you 
that this is expensive, but we have a situation where, given 
the various platforms and how they age out, we don't have much 
of a choice with respect to the metallurgy, the physics, just 
the natural aging of these platforms.
    So they have been--many of them--extended over time, but 
there is a physical factor. On the other hand, it is expensive. 
Being a nuclear power is very expensive. And, you know, at the 
risk of stating the obvious, this is an expensive venture. I 
mean, being a nuclear power is an expensive venture. We are 
prioritizing as an administration, the maintenance, the safety, 
the security of our nuclear enterprise, but it is expensive.
    Dr. Harvey. It is clear that we are facing a modernization 
mountain in the budget in the period of time in the next 
decade--in the mid-part of the next decade. And, we are 
thinking very hard about how to manage that and stay within 
what we might consider to be affordable levels.
    It so happens that the last modernization cycle we did for 
our nuclear platforms was in the 1980s, and those platforms 
have been life extended for significant periods in addition, 
but it is not surprising that this modernization cusp will be 
hitting us in the next decade. We need to be prepared for it. 
We need to manage it. And it is going to be a major challenge.
    Mr. Johnson. Thank you, and I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes himself for a second round of 
questions.
    The B61 [tactical thermonuclear gravity bomb] life 
extension program is very important to this subcommittee, and 
as you all know, it is perhaps the most complex direct work on 
a U.S. nuclear weapon in over 25 years. But, before approving 
the B61 life extension program to enter engineering 
development, the Nuclear Weapons Council made a decision to 
forgo an option known as triple-alt that would have replaced 
three components, but left the rest of the bomb alone.
    For General Kehler and Dr. Harvey, why did the NWC forgo 
triple-alt option?
    And would it have met the DOD's threshold requirements?
    Dr. Harvey first.
    Dr. Harvey. The triple-alt option would have replaced the--
you say--three components of the B61, the radar which is a 40- 
to 45-year-old system that still employs vacuum tube 
technology, the neutron generators, and the power supplies for 
the warhead. One of the options considered in our phase II 
study was the triple-alt. And, we decided--we took a considered 
decision and reviewed that decision late in 2011 and decided 
that it was not prudent to go forward with the triple-alt, 
because, number one, it did not meet military requirements as 
established, and there were some other reasons in addition not 
to go forward.
    It would have foreclosed our ability to manage the size of 
the stockpile and the numbers and types in the stockpile by 
being able to consolidate four weapons types--three 
nonstrategic and one strategic--into one weapons type, which we 
are determining the B61-12. And, it would have had other 
impacts in addition.
    Number two, we would have to basically revisit a life 
extension program some time in the next decade, possibly 
earlier, to basically fix the things that we didn't fix in the 
triple-alt, which would have--doing two things separately is 
not less expensive than doing two things together at the same 
time.
    One final point is that the B61 current system, the current 
bomb, is not compatible with the joint strike fighter or the 
upgraded B-2 digital interface, and so we would have had to 
continue to deploy this system with existing dual-capable 
aircraft which would introduce additional costs for extending 
the life of those aircraft.
    Mr. Rogers. General Kehler.
    General Kehler. Sir, I would just add that additional 
technical issues arose after the triple-alt proposal was put on 
the table, and those were hinted at when we discussed the 
triple-alt, and since that time, I think the labs, Sandia in 
particular, have come back with some additional concerns that 
from an operational requirement standpoint will have to be 
addressed.
    So triple-alt no longer does what is sufficient to cover 
basically the threshold requirements that we thought we had 
when triple-alt was put together.
    Mr. Rogers. Okay, Administrator Miller, over the long term, 
would triple-alt resolve all reliability concerns in the B61, 
and is there anything in the triple-alt that would not address 
that would present weapon reliability concerns in the 2020s?
    Ms. Miller. Yes, Mr. Chairman, there are electronic systems 
in the warhead--the details of which are classified--but that 
are in an ongoing way exposed to radiation. And from a material 
standpoint, we would have to go back and do a full life 
extension of the weapon, as I think my colleagues have 
indicated, within 10 years.
    And so that option, frankly, after much discussion in the 
Nuclear Weapons Council where many people were very interesting 
in a less expensive option than the one we ultimately selected, 
we determined we would be penny-wise and very pound-foolish--
not to mention the problem with meeting requirements as General 
Kehler has indicated.
    Mr. Rogers. General Kehler, when you appeared before the 
full committee earlier this year, one of the questions you were 
asked was whether it was your position that any further 
reductions in U.S. nuclear forces take place in a regime that 
is both bilateral and verifiable.
    Is that still your position?
    General Kehler. Yes, it is.
    Mr. Rogers. In that hearing a few months ago you were also 
asked if you were aware of any bilateral, verifiable reductions 
of nuclear forces that haven't occurred through the treaty 
power or by act of Congress as SALT [Strategic Arms Limitation 
Talks] did. And, your response was, ``I am not aware of any.''
    I believe that is correct, and shows a consistency of 
bipartisan practice that this Administration needs to remember.
    Can you please elaborate on another of your responses 
regarding why it is important to have verifiability which is, 
as you stated, ``Guarantees both nations are adhering to the 
agreement.'' Why is that important?
    General Kehler. Sir, I think, as Ms. Creedon said earlier, 
that we get a number of benefits out of treaties. One of those 
is that we are able to build transparency, which fosters 
understanding and ultimately I think has to do with stability.
    And so a verification regime that allows us to have 
confidence in the approach that the parties are taking, I think 
helps us in many, many ways. To include, ultimately, it allows 
us to go forward in a way that is stable.
    Mr. Rogers. Okay. I want you all to know that the Readiness 
Subcommittee, Chairman Whitman and I are sending a letter to 
the White House informing the President we will not be 
providing any of the New START reduction funding, the $75 
million requested in fiscal year 2014 budget submission until 
we get the plan required in the fiscal year 2012 NDAA, and his 
personal commitment that he will not seek reductions that will 
circumvent the treaty, or the congressional authorization, 
process.
    And with that, I will recognize the ranking member for any 
additional questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    Secretary Creedon, General Kehler, Ms. Miller, both the 
HASC [House Armed Services Committee] and the SASC [Senate 
Armed Services Committee] have withheld approval of the request 
for $120 million in reprogramming for CMRR funds, sought by the 
Administration last year. If you would like this is your 
opportunity to make the case that reprogramming should still 
occur?
    Ms. Miller. Mr. Cooper, since the reprogramming was 
submitted by my agency, if you don't mind, I will start. As you 
know, that was a--the decision not to go forward with the plan 
that was on record to build that facility was very deeply 
considered. And threw a lot of things into disarray. It had 
been on the books for many, many years as the program of record 
to maintain plutonium capability. However, budget realities, 
both in the budget itself, as well as what that facility was 
ultimately going to cost forced us to go back to the drawing 
board, frankly, and rethink.
    That reprogramming that we submitted now reflects our 
better understanding of what our options are, how we can 
maintain plutonium capability until we do have full replacement 
of the current CMR [Chemistry and Metallurgy Research] 
capability. And I think frankly in the end, it has behooved us 
to take the time to step back and relook at our options.
    So that reprogramming, first of all now is--we are 
absolutely in a position where we must have the ability to fund 
the program--the interim program as we have--as we have 
described it, to maintain that plutonium capability. But also 
it has led us to a place to understand that the plutonium 
facility, the so-called PF-4 at Los Alamos which is going to 
need to be replaced, together with the chemistry and metallurgy 
capabilities, is something we need to be looking at as one 
project, or one understanding, or project.
    So, currently we are reviewing a business case for a 
modular option, as well as several other options. Again not 
wanting to pin ourselves to one thing to replace one other 
thing. And we expect to have a good sense of what is going to 
be a prudent path forward for all of us, both from a 
capability, and a funding perspective, by about July. We are 
doing that review with the Department of Defense. The 
reprogramming itself, however, is absolutely necessary if we 
are going to be able to maintain any capability going forward 
in the interim.
    Mr. Cooper. So it was highly desirable last year, and this 
year it is urgent?
    Ms. Miller. I would say beyond urgent at this point.
    Mr. Cooper. Beyond urgent?
    Ms. Miller. Yes.
    Mr. Cooper. Well, hopefully my colleagues will be 
listening. How about resolving the threat of earthquake issue 
at Los Alamos for either CMRR, or the PF-4. Because I know that 
Dr. Winokur was pretty strong in his testimony about that. And 
yet we have a memo from Terry Wallace, principal associate 
director at Los Alamos, kind of downplaying earthquake risk. 
How do we decide that issue?
    Ms. Miller. So, we have in fact undertaken an extensive 
program at PF-4 to address the concerns of the board, and I 
note Dr. Winokur and I have personally spoken, and I have 
spoken to the board about that program to lay out, it has been 
well laid out for their staff, for our staff, and their staff, 
all of the upgrades that have occurred. We have spent a 
considerable amount of time and money upgrading the facility so 
that the Secretary of Energy, Secretary Chu, sent a letter to 
the board declaring that he was comfortable with the facility 
to continue to operate with those upgrades.
    But I would be remiss if I didn't again say, we do need to 
look at replacing that facility, and that is our plan going 
forward, to look at what makes the most sense to get that 
facility replaced?
    Mr. Cooper. Does that satisfy you, Dr. Winokur?
    Dr. Winokur. Well, Congressman, the board remains concerned 
about this facility because obviously it is susceptible in an 
earthquake to collapse. And the board has communicated with the 
Secretary early in the year that the analysis shows it is 
subject to collapse, and that the off-site dose consequences 
are very high. There are areas of agreement right now. I think 
the Secretary communicated with the board and said he 
understood the vulnerability, and he understood that the margin 
between the loss of confinement in this facility, and collapse 
was really too small.
    And the Secretary agreed to additional modeling to 
understand what other modifications need to be performed on the 
building. And NNSA has already performed some modifications to 
the building. The Secretary also agreed that near-term actions 
will be taken to reduce the amount of waste that is in the 
facility--legacy waste. This is plutonium that is not necessary 
for the mission. That some of this dispersible plutonium needs 
to be containerized, and that more focus needs to be provided 
for emergency response, preparedness, and recovery.
    With that being said, the way the board is looking at this 
project, is simply to understand whether or not NNSA is meeting 
its requirements. These are NNSA's requirements, they are not 
our requirements. We want to understand whether they are 
meeting their requirements for the containment of the material 
in this building, as well as collapse. And the other thing the 
Secretary communicated to us was he felt at this time, that 
operations in this building are safe. This is a risk-based 
assessment, and the board would probably in the future want to 
have a better understanding of how the Secretary performed that 
assessment and arrived at those conclusions.
    So, yes I think there is a lot of agreement here about how 
important it is to fix this facility. I think it is fixable 
going forward in the future. But the board does remain 
concerned about it.
    Mr. Cooper. Dr. Harvey, in the limited time remaining, back 
to the B61 modernization issue. I was astonished to learn that 
there are still vacuum tubes used in anything, much less a 
critical component of our national defense. Are there other 
instances of vacuum tube use in DOD and critical weapons 
systems that we need to address?
    Dr. Harvey. Not that I am aware of.
    Mr. Cooper. So the B61 would be unique in that regard?
    Dr. Harvey. I believe so.
    Mr. Cooper. And there are transistor solid-state 
substitutes for the vacuum tubes?
    Dr. Harvey. There are.
    Mr. Cooper. That are readily available, and more 
survivable, and more robust?
    Dr. Harvey. Yes, sir.
    Mr. Cooper. It is remarkable. I think many people in the 
younger generation would not even know what a vacuum tube is, 
much less want to trust it for a critical component of national 
defense. Hopefully we can solve this problem.
    General Kehler. Congressman, if I could add though, while 
they may not exist in the weapons, I know you can find some 
large floppy-disks still being used in places in our nuclear 
command and control system. And so I think that there are some 
investments here that we are going to need to continue with, 
even though the difficulty that we have with overall investment 
is upon us.
    Mr. Cooper. Well, General, your statement bears some 
repeating. Large floppy-disks still exist in components for our 
nuclear command and control? This is almost as astonishing as 
vacuum tubes. Oh my gosh. How could this happen? It is like, 
PCs [Personal Computer] aren't that expensive? What is going on 
here?
    General Kehler. It isn't quite that simple, but, sir, I 
take your point.
    Mr. Cooper. Finally back to the sequestration point. This 
is a little bit of a leading question but, if a foreign power 
were to hit us with something called sequestration that had a 
similar effect to the effect described in each of your 
Departments, wouldn't we view that as at least an act of 
provocation? And possibly even an act of war? And yet this has 
been aimed at us by our own Congress? Anybody want to take that 
bait?
    [Laughter.]
    Mr. Cooper. I don't blame you.
    But thank you, Mr. Chairman.
    Mr. Rogers. I don't argue with the aiming part, but the 
President came up with the idea.
    The gentleman from Florida, Mr. Nugent, is recognized.
    Mr. Nugent. Thank you Mr. Chairman.
    And I know this is a very bright group because you didn't 
fall for that, but we appreciate it.
    The--as it relates to Yucca Mountain, Mr. Huizenga, 
President Obama has taken actions to terminate the Yucca 
Mountain project. And by law, Yucca Mountain remains designated 
as the Nation's first repository for high-level radioactive 
waste. What are the implications of this cancellation on the 
Yucca Mountain repository and the Department of Energy's 
ability to manage and consolidate defense waste? And what is 
the next best option? So it is a two-part.
    Mr. Huizenga. Thank you, Congressman. Well, we have been 
storing our spent fuel, our defense spent fuel safely for some 
time. And we would intend to continue to do so in either dry 
storage, or we had some still in wet storage that we are moving 
in--over time into dry storage.
    So that would be our intention. And that can be--we are 
quite sure it can be stored safely for several decades relative 
to--ultimately of course, we want to disposition that fuel. So 
we would be working with the Administration and with Congress 
ultimately to try to find a consensus view of where we should 
have a repository.
    Mr. Nugent. So is there a next best on the list, or is 
Yucca Mountain the only thing on the list?
    Mr. Huizenga. Well, we are in the middle of--beginning 
stages of trying to answer that question. And I don't have a 
specific answer as to what the next best thing is at this 
moment.
    Mr. Nugent. Okay.
    Mr. Chairman, I would like to yield the balance of my time 
to Mr. Lamborn.
    Mr. Lamborn. Thank you.
    Dr. Harvey, I would like to just ask a little bit more 
about CAPE. I mentioned that earlier. What can you tell us 
about a study that either exclusively or among other things 
would be looking at the effects, the impacts of eliminating one 
leg of a triad?
    Dr. Harvey. I would--I don't have much to add beyond what 
Secretary Creedon spoke to.
    But I would address the point that I think these kinds of 
activities, these types of relooks, these reviews, particularly 
when we have a new Secretary coming on board who wants to 
basically question assumptions and help--and by doing so help 
him to come to understand how we made some of the decisions we 
have in the past is a valuable thing to do.
    Regarding the ongoing activity is something that I believe 
Deputy Secretary Carter referred to last--in his announcement 
last February that we are going to look at strategic choices 
within the Department. And I really don't have anything to add 
beyond what Ms. Creedon spoke to----
    Mr. Lamborn. Could you provide to the committee the terms 
of reference for the study?
    Dr. Harvey. I believe I can provide to the committee the 
public announcement that we are going to move forward on this 
activity.
    Mr. Lamborn. Well, I would like the terms of reference.
    Dr. Harvey. Congressman, I will look into that and get back 
to you.
    [The information referred to can be found in the Appendix 
on page 140.]
    Mr. Lamborn. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rogers. Gentleman from Georgia, Mr. Johnson, is 
recognized for 5 minutes.
    Mr. Johnson. Thank you.
    Secretary Creedon, General Kehler, or both, would you be 
able to give us some idea as to how DOD intends to structure 
its forces to comply with the New START treaty?
    Secretary Creedon. Well, let me--sir, just a little bit. So 
right now, the Department is spending some of this New START 
implementation money on doing away with systems that had been 
previously retired but that still counted under the old START 
treaty. So a lot of this money is getting those things actually 
finally off the books.
    So not only are--do we need this--do we need the New START 
money to look for the actual way we structure the 800, 700, 
1,550--in other words, 800 total systems, 700 deployed 
strategic delivery systems, and 1,550 deployed strategic 
nuclear warheads--but we have to get rid of all these old 
systems that we refer to as phantoms, so previously retired 
ICBMs, previously retired bombers.
    So that work is also undergoing and also critical to 
allowing us to implement it. But as we think about from a 
policy perspective how we meet these numbers, we want to do it 
in a way that allows the most flexibility for the longest 
period of time.
    So what do we think about: we think about what if there 
were some sort of a breakout from a treaty in the future, we 
want to make sure we have sufficient capacity and capability to 
be able to respond to a breakout, we want to make sure that we 
have enough capability across the triad so that if there is an 
issue with one piece of the triad we have the ability to cover 
for it with other pieces of the triad.
    So these are the sorts of things that we are examining and 
looking at right now as we develop the specifics of--from the 
DOD perspective, the--specifically the 800 total deployed and 
nondeployed and the 700 deployed.
    General Kehler. And I would only say, just to add, there is 
not a final decision. There are many ways that we can go 
forward. And that balancing that Ms. Creedon just mentioned is 
exactly what is in the mixture today. So there is some 
advantage to us doing all the preparation work as we go 
forward, and there is also been some advantage to us to keep 
some flexibility in how we will ultimately decide.
    And by the way, the treaty was structured specifically so 
each side can decide on its own how to best structure its 
forces to be within the limits. So there are multiple ways we 
can go. We are looking at the operational benefits to a number 
of different ways. And within that, I would say that in every 
case we are looking at retaining a triad.
    Secretary Creedon. Can I just add one more thing to that? I 
apologize. There is also a subtlety to this treaty that 
actually is really very interesting, in that there is no such 
thing, if you would, of what the final force structure under 
this treaty will look like until the final day of the treaty 
because each side has infinite flexibility as to what their 
force structure looks like on an ongoing basis.
    Mr. Johnson. So that kind of answers my next question, I 
suppose, which was at what point must we have a final decision 
on force structure under New START II?
    General Kehler. What I will say as a practical matter, sir, 
that decisions can't get executed overnight. And in some cases 
here, this requires a significant amount of work from the Navy 
and the Air Force. And so we think we still have time to make 
these decisions, but there is also a window here that will 
close over the next year or so, perhaps a little longer, which 
is why we are doing a lot of preliminary efforts and a lot of 
preparation.
    Mr. Johnson. Otherwise our operations and maintenance 
capabilities could be threatened?
    General Kehler. That is right.
    Mr. Johnson. Thank you.
    I yield back.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for any additional questions he may have.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And I am glad we have a few minutes before we have to go 
off to vote. Administrator Miller, the budget request 
justification documents show that NNSA is expecting to realize 
hundreds of millions of dollars in efficiencies in fiscal year 
2014 to help pay for all the work that it wants to do and needs 
to do.
    The total--these total more than $300 million in fiscal 
year 2014, but the justification documents are very vague on 
how these are to be achieved. Can you give us specificity on 
how the $300 million plus in efficiencies will be achieved?
    Ms. Miller. Thank you, Congressman. I can tell you the 
process we are going through right now. And I just had a report 
yesterday afternoon in fact on the status of this.
    So the specifics I would like to take for the record 
because I haven't actually reviewed what has come forward for 
it. But I will tell you the effort that is ongoing right now to 
identify those efficiencies actually is making very good 
progress. So we will be able to provide you with that.
    [The information referred to can be found in the Appendix 
on page 140.]
    Mr. Lamborn. Well, I look forward to having that provided 
to myself and the committee, but I am concerned that this is 
still very vague. I mean, how can we count on that, and if--
let's say it doesn't materialize. Let's assume for a moment it 
does not materialize, that the hopes and expectations are too 
ambitious. What would that do to key programs like the B61 or 
W76 [submarine-launched ballistic missile warhead] life 
extension programs?
    Ms. Miller. Congressman, if we were unable to realize the--
all of the efficiencies that we have assumed in the fiscal 2014 
5-year budget, we definitely would have to, given that the 
budget right now--that the numbers that we are planning to are 
very fixed and quite low, as we have all been discussing, we 
would have to go back and rethink how we are going to execute 
the programs we have.
    The reason we put the efficiencies into the budget to begin 
with was to try to accommodate this, as I think Dr. Harvey 
said, this vast bow wave of work that is facing us now. So we 
have the work to do and we have very limited budget with which 
to do it. And the only way we are going to get there is if we 
do it in a more efficient way.
    Mr. Lamborn. Once again, I hope you are right, but I don't 
see the facts in front of me. I don't see the efficiency. I 
would love to have a Department say, okay, $300 million, we can 
come up with that. It sounds way too optimistic. I hope I am 
wrong.
    Ms. Miller. Right. Well, I hope we are able to achieve it. 
Faced with planning a large program of work and very limited 
dollars, there is nothing that you can do in order to do that, 
especially given the kind of work that we do that has to 
happen, than to go after how we do the work.
    Now, we, of course, as you know, when we formulate the 
President's budget, we come to a point at which we realize this 
is the bill we have to pay for the work we have to do, and here 
is the bucket of dollars we have to pay for it.
    At that point, you begin to realize it is going to take 
you--you are going to have to make a major effort to understand 
how you can do this more efficiently, and, yes, you do put a 
number on it. But then you first begin the work at that point. 
At that point, the President's budget has been formulated and 
you have got your numbers, but that is when the hard work 
begins on those efficiencies. And that is why we are where we 
are right now.
    We could not, of course, anticipate or figure out all the 
efficiencies in advance before we knew the amount we were going 
to have to come up with. So that is where we are in the 
process.
    Mr. Lamborn. Well, it sounds like maybe we need to take 
some of this with a grain of salt and maybe address that with 
money from elsewhere possibly. I am just--that is my personal 
perspective. You can't give us any specifics, then, on the 
proposed efficiencies?
    Ms. Miller. Well, I would give you--in the general, without 
attaching dollar amounts to it. We are looking across our 
complex at how we staff the activities that are staffed at each 
of the field offices, and whether we--whether it is--we have 
regularly been told by our laboratories and our plant partners 
that for every individual that we have working and the kind of 
oversight that we have been performing, they often have many--
three, four, five times as many people addressing that.
    The question is, can we do this oversight work with them in 
a better way that does not require them to have so many people. 
Their people are by definition always more expensive than our 
people. And so a lot of the cost, virtually all of the cost 
that we incur in our complex, is a people-based cost. It is not 
actually for hardware. Most of--70 percent at least of our 
money is for the people involved.
    So if we can work more efficiently, we should be able to 
realize the savings related to that, but it does take 
examination of all of our processes and I--the kinds of things 
I indicated in my opening speech about how we do our business.
    Mr. Lamborn. Okay. Well, I wish you the best.
    Thank you.
    Mr. Rogers. I thank the gentleman.
    Thank you to all the witnesses for your time. We have been 
called for votes.
    I do want to touch on one thing before we leave to vote. 
This committee has been looking actively at the longstanding 
and well-documented problems at NNSA and DOE's governance, 
management, and oversight of this nuclear enterprise. As you 
all know, Congress has tasked an advisory committee to work on 
suggestions for us as to how this enterprise can be improved. 
So, all 12 members have been appointed. I would like to ask 
each of you to affirm that you would be willing to cooperate 
with that advisory committee in its efforts.
    And I will start with you, Secretary Creedon.
    Secretary Creedon. Yes, sir, very much. As you may know, my 
office, in conjunction with Secretary Weber in AT&L, have been 
working very hard to make sure that the processes are in place 
to get this panel up and running. And so we are absolutely 
committed to this panel.
    Mr. Rogers. General Kehler.
    General Kehler. I am committed to it as well. Yes, sir.
    Mr. Rogers. Ms. Miller.
    Ms. Miller. I am committed as well, sir.
    Mr. Rogers. Dr. Harvey.
    Dr. Harvey. Of course, sir. Thank you.
    Mr. Rogers. Mr. Huizenga.
    Mr. Huizenga. Yes, as it is going to affect us, sure.
    Mr. Rogers. All right.
    Dr. Winokur, don't break the streak.
    [Laughter.]
    Dr. Winokur. Yes, we are committed.
    Mr. Rogers. All right. Thank you all very much. It has been 
very helpful.
    This hearing is adjourned.
    [Whereupon, at 10:54 a.m., the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                              May 9, 2013

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 9, 2013

=======================================================================

      
                     Statement of Hon. Mike Rogers
            Chairman, House Subcommittee on Strategic Forces

                               Hearing on

 Fiscal Year 2014 Budget Request for Atomic Energy Defense Activities 
                      and Nuclear Forces Programs

                              May 9, 2013

    Welcome to the Strategic Forces subcommittee hearing on the 
President's Fiscal Year 2014 budget request for Atomic Energy 
Defense Activities and Nuclear Forces Programs. I want to thank 
our witnesses for being here today. We have a crowded witness 
table because we have a lot of ground to cover in this hearing. 
Our distinguished witnesses are:
        <bullet> LThe Honorable Madelyn R. Creedon, Assistant 
        Secretary of Defense for Global Strategic Affairs, U.S. 
        Department of
        Defense;
        <bullet> LGeneral C. Robert Kehler, USAF, Commander, 
        U.S. Strategic Command;
        <bullet> LThe Honorable Neile L. Miller, Acting 
        Administrator, National Nuclear Security 
        Administration;
        <bullet> LDr. John Harvey, Principal Deputy Assistant 
        Secretary of Defense for Nuclear, Chemical, and 
        Biological Defense Programs, U.S. Department of 
        Defense;
        <bullet> LMr. David G. Huizenga, Senior Advisor for 
        Environmental Management, U.S. Department of Energy; 
        and
        <bullet> LThe Honorable Peter S. Winokur, Chairman, 
        Defense Nuclear Facilities Safety Board.
    I appreciate you taking the time to prepare for this 
hearing, and we always appreciate the contributions you each 
make to U.S. national security.
    Turning to the issues, let me start with the good news. 
First, the Department of Defense has made clear that its top 
two priorities to protect from the effects of sequestration--
beyond those that are exempt by statute or presidential 
direction--are operations in Afghanistan and operations and 
sustainment of U.S. nuclear forces. These are the correct 
priorities.
    Second, the budget request would continue the major 
modernization efforts for the Ohio class replacement submarine 
and the long-range strike bomber.
    Third, the budget request would provide a significant boost 
to the National Nuclear Security Administration's nuclear 
weapons work. I commend the Administration for trying to get 
back on track with nuclear modernization at NNSA.
    But I also want to highlight several very serious concerns. 
For starters, the budget request does not account for the 
effects of sequestration continuing into FY14--which would 
gravely endanger programs across the DOE and NNSA nuclear 
enterprise.
    Furthermore, for FY12 through FY14 we still find ourselves 
a total of around $1.6 billion short of the NNSA funding levels 
that were committed to by the President to win Senate 
ratification of the New START treaty. So while the 
Administration is trying to get back on track with the FY14 
request, the nuclear deterrent has still been shortchanged the 
past several years.
    We also find ourselves behind on some key capabilities and 
programs. The Ohio class replacement program, the B61 life 
extension program, the W78/W88 life extension program, the 
long-range standoff cruise missile--these and others have been 
significantly delayed. Worse, the Administration has 
effectively and unilaterally canceled the plutonium facility at 
Los Alamos.
    Reviewing the budget request, we have identified $75 
million for the Navy and the Air Force for implementing the New 
START treaty. This is rather strange, because the 
Administration still has not complied with the FY12 defense 
authorization act, which required the Administration to submit 
a report 18 months ago on how it would implement New START. In 
my view, Congress cannot provide funds to carry out reductions 
it does not have enough information to understand.
    We also find that the Air Force would use $1.5 million to 
begin an Environmental Impact Study on shutting down one or 
more ICBM wings. We've heard no explanation for this study and 
why the Administration thinks it needs to shut down an ICBM 
wing to comply with New START.
    On the policy front, in the next few months the 
Administration is expected to finally complete its long-delayed 
review of the Nation's nuclear war plan. Based on press 
reports, this 18-month-long ``90-day study'' is likely to 
recommend significant further U.S. nuclear force reductions.
    So, while the Administration has not yet decided how to 
implement the reductions required under New START, it is now 
pushing for even more. Equally concerning are reports that the 
Administration may seek to avoid Congress and undertake further 
nuclear reductions outside of the formal treaty process or 
without affirmative approval by Congress. This approach is a 
nonstarter.
    Let me reiterate something I have said before: As the 
stockpile shrinks in size, we have reached the point where 
further reductions take on immense importance to the Nation's 
security and international stability. Avoiding Congress because 
the President is unwilling to debate the merits of his policy 
choices is unacceptable and should be intolerable to anyone who 
cares about our system of government. Congress must be a full 
and equal partner for these hugely important national security 
decisions, and I intend to see that my colleagues and I fulfill 
our constitutional role.
    As I said at the outset, we have a lot of ground to cover 
in this hearing. I expect we'll continue this subcommittee's 
discussion of management and governance problems at NNSA and 
DOE. I also expect we'll review the important work of the 
Defense Environmental Cleanup program. DOE is doing great work 
in this area, but technical and management problems continue at 
some of their biggest and most visible projects. 


[GRAPHIC] [TIFF OMITTED] 82460.001

[GRAPHIC] [TIFF OMITTED] 82460.002

[GRAPHIC] [TIFF OMITTED] 82460.003

[GRAPHIC] [TIFF OMITTED] 82460.004

[GRAPHIC] [TIFF OMITTED] 82460.005

[GRAPHIC] [TIFF OMITTED] 82460.006

[GRAPHIC] [TIFF OMITTED] 82460.007

[GRAPHIC] [TIFF OMITTED] 82460.008

[GRAPHIC] [TIFF OMITTED] 82460.009

[GRAPHIC] [TIFF OMITTED] 82460.010

[GRAPHIC] [TIFF OMITTED] 82460.011

[GRAPHIC] [TIFF OMITTED] 82460.012

[GRAPHIC] [TIFF OMITTED] 82460.013

[GRAPHIC] [TIFF OMITTED] 82460.014

[GRAPHIC] [TIFF OMITTED] 82460.015

[GRAPHIC] [TIFF OMITTED] 82460.016

[GRAPHIC] [TIFF OMITTED] 82460.017

[GRAPHIC] [TIFF OMITTED] 82460.018

[GRAPHIC] [TIFF OMITTED] 82460.019

[GRAPHIC] [TIFF OMITTED] 82460.020

[GRAPHIC] [TIFF OMITTED] 82460.021

[GRAPHIC] [TIFF OMITTED] 82460.022

[GRAPHIC] [TIFF OMITTED] 82460.023

[GRAPHIC] [TIFF OMITTED] 82460.024

[GRAPHIC] [TIFF OMITTED] 82460.025

[GRAPHIC] [TIFF OMITTED] 82460.026

[GRAPHIC] [TIFF OMITTED] 82460.027

[GRAPHIC] [TIFF OMITTED] 82460.028

[GRAPHIC] [TIFF OMITTED] 82460.029

[GRAPHIC] [TIFF OMITTED] 82460.030

[GRAPHIC] [TIFF OMITTED] 82460.031

[GRAPHIC] [TIFF OMITTED] 82460.032

[GRAPHIC] [TIFF OMITTED] 82460.033

[GRAPHIC] [TIFF OMITTED] 82460.034

[GRAPHIC] [TIFF OMITTED] 82460.035

[GRAPHIC] [TIFF OMITTED] 82460.036

[GRAPHIC] [TIFF OMITTED] 82460.037

[GRAPHIC] [TIFF OMITTED] 82460.038

[GRAPHIC] [TIFF OMITTED] 82460.039

[GRAPHIC] [TIFF OMITTED] 82460.040

[GRAPHIC] [TIFF OMITTED] 82460.041

[GRAPHIC] [TIFF OMITTED] 82460.042

[GRAPHIC] [TIFF OMITTED] 82460.043

[GRAPHIC] [TIFF OMITTED] 82460.044

[GRAPHIC] [TIFF OMITTED] 82460.045

[GRAPHIC] [TIFF OMITTED] 82460.046

[GRAPHIC] [TIFF OMITTED] 82460.047

[GRAPHIC] [TIFF OMITTED] 82460.048

[GRAPHIC] [TIFF OMITTED] 82460.049

[GRAPHIC] [TIFF OMITTED] 82460.050

[GRAPHIC] [TIFF OMITTED] 82460.051

[GRAPHIC] [TIFF OMITTED] 82460.052

[GRAPHIC] [TIFF OMITTED] 82460.053

[GRAPHIC] [TIFF OMITTED] 82460.054

[GRAPHIC] [TIFF OMITTED] 82460.055

[GRAPHIC] [TIFF OMITTED] 82460.056

[GRAPHIC] [TIFF OMITTED] 82460.057

[GRAPHIC] [TIFF OMITTED] 82460.058

[GRAPHIC] [TIFF OMITTED] 82460.059

[GRAPHIC] [TIFF OMITTED] 82460.060

[GRAPHIC] [TIFF OMITTED] 82460.061

[GRAPHIC] [TIFF OMITTED] 82460.062

[GRAPHIC] [TIFF OMITTED] 82460.063

[GRAPHIC] [TIFF OMITTED] 82460.064

[GRAPHIC] [TIFF OMITTED] 82460.065

[GRAPHIC] [TIFF OMITTED] 82460.066

[GRAPHIC] [TIFF OMITTED] 82460.067

[GRAPHIC] [TIFF OMITTED] 82460.068

[GRAPHIC] [TIFF OMITTED] 82460.069

[GRAPHIC] [TIFF OMITTED] 82460.070

[GRAPHIC] [TIFF OMITTED] 82460.071

[GRAPHIC] [TIFF OMITTED] 82460.072

[GRAPHIC] [TIFF OMITTED] 82460.073

[GRAPHIC] [TIFF OMITTED] 82460.074

[GRAPHIC] [TIFF OMITTED] 82460.075

[GRAPHIC] [TIFF OMITTED] 82460.076

[GRAPHIC] [TIFF OMITTED] 82460.077

[GRAPHIC] [TIFF OMITTED] 82460.078

[GRAPHIC] [TIFF OMITTED] 82460.079

[GRAPHIC] [TIFF OMITTED] 82460.080

[GRAPHIC] [TIFF OMITTED] 82460.081

[GRAPHIC] [TIFF OMITTED] 82460.082

[GRAPHIC] [TIFF OMITTED] 82460.083

[GRAPHIC] [TIFF OMITTED] 82460.084

[GRAPHIC] [TIFF OMITTED] 82460.085

[GRAPHIC] [TIFF OMITTED] 82460.086

[GRAPHIC] [TIFF OMITTED] 82460.087

[GRAPHIC] [TIFF OMITTED] 82460.088

[GRAPHIC] [TIFF OMITTED] 82460.089

[GRAPHIC] [TIFF OMITTED] 82460.090

[GRAPHIC] [TIFF OMITTED] 82460.091

[GRAPHIC] [TIFF OMITTED] 82460.092

[GRAPHIC] [TIFF OMITTED] 82460.093

[GRAPHIC] [TIFF OMITTED] 82460.094

.eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 9, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FRANKS

    Ms. Miller. a) The Infrastructure Security and Energy Restoration 
(ISER) program in the Department of Energy's Office of Electricity 
Delivery and Energy Reliability leads national efforts, in cooperation 
with public and private sector stakeholders, to enhance the 
reliability, survivability, and resiliency of the U.S. energy 
infrastructure (electricity, petroleum, natural gas), while also 
improving national energy security by addressing energy infrastructure 
interdependencies based on risk and consequences.
    ISER's primary responsibility is to help secure the U.S. energy 
infrastructure against all hazards, whether natural or man-made, 
physical or cyber. It also develops tools and identifies advanced 
technology for deployment to enhance the ability of the energy sector 
to be resilient. In addition, ISER partners with state and local 
governments, responding to and recovering from energy disruptions, to 
ensure seamless collaboration at all levels. These activities place 
ISER in a unique role to help define the technology needs of the energy 
sector. ISER uses its expertise and partnerships to identify potential 
technical solutions and suppliers of technology, evaluate risk and 
cost, and drive innovation by facilitating the seamless integration of 
advanced technologies developed by OE's research and development 
programs into energy infrastructure. ISER contributes to the 
Department's and the energy sector's long-term responsibilities to 
secure the U.S. energy supply by addressing topics like High Impact Low 
Frequency events such as a geomagnetic disturbance (GMD) storms. ISER 
also mitigates risks posed to global energy infrastructure by assisting 
key energy-producing partners in securing their energy infrastructure, 
in coordination with the Department of State and on a cost-reimbursable 
basis.
    b) The ISER program has performed these functions within an 
approximately $6 million appropriation. However, as Superstorm Sandy 
highlighted, the Department is currently not fully equipped to respond 
to new challenges caused by stronger, more destructive storms; more 
sophisticated cyber attacks; potential accidents as a result of aging 
infrastructure or human error; and potential high-impact low frequency 
threats such as geomagnetic disturbance storms or a catastrophic 
earthquake. The additional $10 million for the new Operational Energy 
and Resilience (OER) initiative in FY 2014 will lay the foundation to 
develop an enhanced capability that will enable the Department to 
better protect against and mitigate threats and hazards, with the 
ultimate goal of quicker recovery by industry and the communities they 
serve through. OER, in conjunction with continuing ISER activities, 
will enable the Department to meet these challenges.
    c) The FY 2014 request for the OER supports the modification and 
expansion of the Energy Resilience and Operations Center (E-ROC) within 
the Department of Energy's Washington, D.C. headquarters. E-ROC will be 
a steady-state operations center, where the Department monitors, 
receives and analyzes real-time threat and energy sector status and 
coordinates and shares this information with all Energy Sector 
stakeholders. During emergencies, it will serve as the collaboration 
hub between the Department of Energy, other Federal Agencies and Energy 
Sector partners, including critical infrastructure owners and 
operators, and will be responsible for status and information sharing 
between DOE and other emergency operation centers (Federal and State). 
A state-of-the-art ``knowledge wall'' (screen) in the E-ROC will be 
capable of receiving multiple and disparate near real-time data feeds, 
simultaneously visualizing and overlaying over the affected area, so 
that decision makers can appropriately respond.
    The OER subprogram will place DOE Regional Energy Advisors in 10 
regional offices (aligned with FEMA's regions) to implement regionally 
tailored, energy resilience approaches for facility owners and States 
(including territories and tribal) to mitigate, prepare, prevent, 
respond and recover from major disasters and events that impact energy 
infrastructure. They will also be able to support response and 
restoration efforts during emergencies.
    d) While the increase for OER requested in FY 2014 does not 
directly fund GMD related work, the request continues efforts to 
address the threat posed to the electricity infrastructure by 
geomagnetic disturbances (GMD). For example, in FY 2013, ISER completed 
a study and developed a strategy that led to the deployment of 
additional geomagnetically-induced sensors that provide data that 
enables utilities to better mitigate impacts of GMD events. As a 
result, the number of sensors installed has increased from 10 sensors 
in one interconnect to 27 sensors (5 funded by DOE and the remainder by 
industry) that cover all three interconnects. [See page 16.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. LAMBORN
    Ms. Miller. NNSA, with assistance from the Department of Defense 
and our contractors, envisions achieving efficiencies from management 
and workforce changes consistent with the President's FY 2014 Budget 
request and FY 2014 FYNSP. Furthermore, NNSA is undertaking this effort 
in coordination with other efficiency efforts examining requirements 
and weapons enterprise capacity. NNSA is approaching achieving the 
efficiencies from a long-term perspective--the goal is to implement 
changes that are credible, measurable and achievable to the nuclear 
security complex for both FY 2014 and the outyears. NNSA is now taking 
a number of actions to drive toward solutions:
    <bullet>  In June, NNSA established the NNSA Operations Council 
comprised of the Chief Operating Officers (COOs) from the NNSA sites 
and co-chaired by the NNSA Associate Principal Deputy Administrator and 
a NNSA site COO. One of the primary goals of the NNSA Operations 
Council will be to bring together senior leaders from NNSA to drive 
operational efficiencies, Working through the Operations Council, NNSA 
will reduce the ``cost of doing business'' with minimal impact on NNSA 
work scope. NNSA believes that working with our M&O partners will be 
the best way to identify where savings can be realized.
    <bullet>  In early Fall, NNSA will complete a contractor workforce 
analysis in close coordination with the Labs and Plants to identify 
workforce prioritizations and whether contractor staffing reallocations 
would impact project scope. As part of the efficiencies identified in 
the President's Budget request, NNSA committed to ``workforce 
prioritization'' efficiencies targeted at achieving Life Extension 
Program (LEP) performance targets by reallocating existing staff on 
non-LEP work to LEP work. This efficiencies target arose from a concern 
about the ability of NNSA sites to staff up to do all the required 
work. The results of the study now under way should provide insights 
into where efficiencies may be found.
    <bullet>  Finally, NNSA and the Department of Defense are working 
very closely together to identify both management and workforce 
efficiencies. This joint effort has been helpful in identifying areas 
to explore for savings. There is a risk that if NNSA is unable to 
realize sufficient savings or to prioritize requirements as targeted in 
the President's Budget, there could be impacts, such as schedule 
delays, on planned activities. [See page 34.]

    Dr. Harvey. We have verified that terms of reference for the 
Strategic Choices Management Review do not exist. [See page 33.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY DR. FLEMING
    General Kehler. USSTRATCOM works with our Service Components to 
continually assess infrastructure security, capabilities, and capacity 
in support of all of my Unified Command Plan (UCP) mission 
requirements.
    Air Force Global Strike Command (AFGSC) is developing a proposed 
schedule and cost estimates for recapitalizing nuclear weapons storage 
and maintenance facilities at FE Warren, Malmstrom, Minot, Whiteman, 
and Barksdale Air Force Bases that have degraded due to age and no 
longer comply with nuclear surety requirements.
    Information will be made available as it becomes available. [See 
page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 9, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. 1) Secretary Creedon, we recently saw senior lawmakers 
in South Korea calling for South Korea to consider developing its own 
nuclear weapons. A recent poll shows that two-thirds of the South 
Korean public support such a move.
    a) What actions should we be taking to strengthen our nuclear 
assurances to South Korea? And to Japan?
    b) The recent B-2 flights to South Korea seem to have made a 
profound impact on the South Korean government and public--a clear 
demonstration of U.S. assurances and resolve in the face of nuclear 
threats. How should we factor this into our discussion of the long-
range strike bomber that is now under development? Does this 
demonstrate the enduring value of long-range nuclear bombers?
    c) What plans/options exist to relocate B61 gravity bombs and dual-
capable aircraft in either country should circumstances warrant that 
action?
    Secretary Creedon. The credibility of U.S. extended deterrence is 
demonstrated and strengthened through a variety of actions. The first 
is transparency: we have substantially increased dialogue with both 
South Korea and Japan regarding extended deterrence, and regularly 
exchange views concerning strategic issues in the region. Our Extended 
Deterrence Dialogue with Japan and Extended Deterrence Policy Committee 
meetings with South Korea keep our allies informed about changes to our 
nuclear policy and posture, avoiding misperceptions. A second way is 
demonstrating resolve in the face of challenges. Examples include the 
recent bomber missions to the Korean Peninsula, close cooperation with 
Japan on missile defense, and a variety of joint exercises in the 
region. Furthermore, the President's recent nuclear employment guidance 
reaffirmed our commitment to our allies and partners that the United 
States will maintain the capability to forward-deploy nuclear weapons 
with both heavy bombers and Dual Capable Aircraft (DCA). Finally, we 
demonstrate our commitment to extended deterrence by investing in 
modernization of our nuclear forces, including the weapons, platforms, 
and infrastructure. It is essential that we fully support the 
President's plans to replace aging elements of our triad, to ensure 
that our extended deterrence capabilities remain safe, secure, and 
effective.
    In accordance with the Presidents guidance, DOD retains the 
capability to forward-deploy heavy bombers and DCA with weapons.
    Mr. Rogers. 2) Secretary Creedon, the Deputy Secretary of Defense 
has indicated that, under sequestration, the Department will prioritize 
protecting: a) current operations in Afghanistan; and b) nuclear 
deterrence operations. Please describe why this second priority was 
selected.
    c) If sequestration continues into FY14, will nuclear deterrence 
operations still be protected? How would nuclear force modernization 
efforts be affected by continuing sequestration into FY14?
    Secretary Creedon. There is widespread agreement on the importance 
of the nuclear deterrence mission, which protects the United States 
from nuclear attack and coercion from adversaries; contributes to 
strategic stability with Russia and China; and assures U.S. allies and 
partners in Europe and Asia that might otherwise be vulnerable to 
nuclear threats or prone to consider developing their own nuclear 
capabilities. The Administration recognizes just how important it is to 
refurbish and upgrade the stockpile so that we can continue to provide 
a safe, secure, and effective deterrent in these uncertain times.
    Sequestration is already having an undesired effect on the 
modernization of U.S. strategic capabilities by delaying slightly the 
completion of the B61-12 Life Extension Program (LEP). If sequestration 
continues, we face the very real risk of doing serious damage to the 
U.S. nuclear stockpile, requiring us to delay or extend further our 
refurbishment efforts for weapons that are already serving well beyond 
their expected service lives. This would create unacceptable risk. That 
is why it is imperative that a solution be found to this situation 
before serious damage is done.
    Mr. Rogers. 3) Secretary Creedon, we understand that you are the 
U.S. representative to NATO's High Level Group, which discusses nuclear 
weapons aspects of NATO defense posture. In the past several years, 
NATO has made a series of decisions and declarations regarding its 
nuclear posture. Please describe these decisions and NATO's nuclear 
policy going forward.
    a. Do NATO countries contribute to the cost of the B61 life 
extension program of the B61 and the cost to modify the Air Force tail 
kit? Would it be appropriate for NATO to pay for a portion of the cost 
of the B61 LEP?
    b. What is NATO's policy regarding future changes to its nuclear 
posture, particularly regarding decisions to rebase or change its 
posture toward forward-deployed B61s?
    Secretary Creedon. Just to be clear, I am the chair of the HLG and 
DASD Elaine Bunn is the U.S. representative. The decision to modernize 
the B61 bomb is a U.S. decision, and the costs for the updated weapon 
are to be borne by the United States. This allows the United States to 
maintain control of the scope of the life extension program (LEP) and 
meet our nonproliferation commitments. It is also important to note 
that the B61 LEP is required independent of NATO in order to meet U.S.
strategic requirements and to ensure the long-term viability of the B-
2A stealth
bomber.
    It would not be appropriate to have NATO fund a portion of the B61 
LEP. However, NATO members provide considerable funds to the NATO 
nuclear mission, including mission-related facilities, services, 
supplies, and other logistical support for our units at each NATO 
storage site; and NATO has funded substantial security enhancements and 
upgrades, and infrastructure upgrades at the storage sites.
    In May of 2012, the NATO Alliance released its Deterrence and 
Defense Posture Review (DDPR), which states: ``As long as nuclear 
weapons exist, NATO will remain a nuclear alliance.'' Additionally, the 
Alliance stated that NATO is ``prepared to consider further reducing 
its requirement for nonstrategic nuclear weapons assigned to the 
Alliance in the context of reciprocal steps by Russia.''
    Mr. Rogers. 4) Secretary Creedon, do you believe our extended 
deterrent assurances to allies lose credibility if we continue to slip 
deadlines for modernizing our stockpile, forces, and infrastructure?
    Secretary Creedon. I do not see an erosion of confidence among our 
allies with respect to the U.S. commitment to our nuclear deterrent. We 
have extensive consultations with key allies on a regular basis 
regarding the United States' extended deterrent and our plans for 
modernization.
    Modernization of our forces, stockpile, and infrastructure is 
necessary and becomes even more important as the Nation considers 
potential further reductions. Our allies and partners watch the U.S. 
budget process and can observe that the President has significantly 
increased the funding requested to complete modernization of the 
stockpile and its accompanying infrastructure. This strengthens the 
credibility of our commitment to modernize and to provide an extended 
deterrent to our allies and partners. Our allies and partners do, 
however, express concerns regarding the effect of continued uncertainty 
stemming from sequestration and the recent inability to appropriate 
funds in a timely and predictable manner. As we continue to adjust 
programs in response to budget challenges, each possible slip in 
schedule or combinations of slips must be evaluated and the possible 
implications identified when considering a program adjustments.
    Mr. Rogers. 5) Secretary Creedon, by law, Congress is supposed to 
receive the annual Report on Stockpile Assessments, which includes the 
assessments of stockpile health conducted by the laboratory directors 
and by the commander of U.S. Strategic Command, by March 15. Like last 
year, Congress did not receive this report until months after the 
statutory deadline. Why is this report always late? Will the 
Administration deliver the report in 2014 by the March 15 deadline?
    Secretary Creedon. DOD recognizes and understands concerns about 
late reports. The Nuclear Weapons Council (NWC) always strives to 
submit this report in a timely manner and will continue to do so in 
order to meet the March 1, 2014, deadline for submission to the 
President and the March 15, 2014, deadline for submission to Congress. 
The Report on Stockpile Assessments is the result of a rigorous, nearly 
year-long process by three national laboratories to certify that the 
stockpile remains safe, secure, and effective. Additionally, it 
requires an assessment by the Commander, U.S. Strategic Command, of the 
laboratory certification results. Every year, these in-depth 
assessments culminate in Secretary-level review in both the Department 
of Defense and Department of Energy.
    This review and discussion of the most serious challenges facing 
the U.S. nuclear deterrent warrant the time and attention to understand 
and address interagency concerns, particularly given that the U.S. 
nuclear enterprise is aging (e.g., the youngest U.S. nuclear warhead is 
27 years old), and that it lacks an underground testing capability. 
Further contributing to these challenges is a fiscally constrained 
environment that requires extensive examination of priorities and often 
difficult choices as we highlight issues in the annual assessments for 
the President. Although we make every effort to address these issues in 
a timely manner, we often experience delays while we work through the 
process. Nonetheless, our goal is to respond in a timely fashion with a 
report that provides the best assessment
possible.

    Mr. Rogers. 6) General Kehler, do you believe our extended 
deterrent assurances to allies lose credibility if we continue to slip 
deadlines for modernizing our stockpile, forces, and infrastructure?
    General Kehler. Modernization of our forces, stockpile and 
infrastructure is necessary and becomes even more important as the 
Nation considers potential further reductions. I believe our allies 
take into account our commitment to sustaining a safe, secure, and 
effective nuclear deterrent when they evaluate the value and 
credibility of our extended deterrence commitments to them. The 
implications of ``slipped'' deadlines fully depend on the programs that 
are slipped and the overall impact on U.S. deterrent capabilities.

    Mr. Rogers. 7) Ms. Miller, what steps is NNSA taking to realize the 
``efficiencies'' described in the FY14 budget request justification 
documents? What are the impacts to the B61 and W76 LEPs, in particular, 
if these efficiencies are not achieved?
    Ms. Miller. NNSA, with assistance from the Department of Defense 
and our contractors, envisions achieving efficiencies from management 
and workforce changes consistent with the President's FY 2014 Budget 
request and FY 2014 FYNSP. Furthermore, NNSA is undertaking this effort 
in coordination with other efficiency efforts examining requirements 
and weapons enterprise capacity. NNSA is approaching achieving the 
efficiencies from a long-term perspective--the goal is to implement 
changes that are credible, measurable and achievable to the nuclear 
security complex for both FY 2014 and the outyears.
    NNSA is now taking a number of actions to drive toward solutions:

    <bullet>  In June, NNSA established the NNSA Operations Council 
comprised of the Chief Operating Officers (COOs) from the NNSA sites 
and co-chaired by the NNSA Associate Principal Deputy Administrator and 
a NNSA site COO. One of the primary goals of the NNSA Operations 
Council will be to bring together senior leaders from NNSA to drive 
operational efficiencies. Working through the Operations Council, NNSA 
will strive to reduce the ``cost of doing business'' with minimal 
impact on NNSA work scope. NNSA believes that working with our M&O 
partners will be the best way to identify where savings can be
realized.

    <bullet>  As part of the efficiencies identified in the President's 
Budget request, NNSA committed to seek ``workforce prioritization'' 
efficiencies targeted at achieving Life Extension Program (LEP) 
performance targets by reallocating existing staff on non-LEP work to 
LEP work. This efficiencies target arose from a concern raised by some 
about the ability of NNSA sites to staff up to do all the required 
work. A recently completed independent study evaluated whether the NNSA 
sites could staff up to support a higher level of LEP activity without 
reducing the quality standards for new employees. In early Fall, NNSA, 
in close coordination with the Labs and Plants, will complete a 
contractor workforce analysis to identify workforce prioritizations and 
whether contractor staffing reallocations would impact project scope. 
The results of the study should provide insights into where 
efficiencies may be found or the impacts due to the realignment of 
existing weapons activity staff.

    <bullet>  Finally, NNSA and the Department of Defense are working 
very closely together to identify both management and workforce 
efficiencies. This joint effort has been helpful in identifying areas 
to explore for savings.

    <bullet>  There is a risk that if NNSA is unable to realize 
sufficient savings or to prioritize requirements as targeted in the 
President's Budget, there could be impacts, such as schedule delays, on 
planned activities. The shares of management efficiencies provisionally 
apportioned to the W76 and B61 LEPs for FY 2014 were $2.5 M and $5.7 M 
respectively. The shares of workforce prioritization savings 
provisionally apportioned to the W76 and B61 LEPs for FY 2014 were $7.9 
M and $17.9 M respectively. At these levels of cuts you could expect 
completion of production for the W76 LEP and achievement of FPU for the 
B61 LEP to be delayed. If these two efforts were protected from any 
cuts arising from a failure to achieve the targeted savings, the 
impacts would be to scope elsewhere in the program.
    Mr. Rogers. 8) Ms. Miller, you commented during the hearing on the 
B61 LEP, and why the so-called ``triple-alt'' option was not acceptable 
from a cost, requirements, and technical standpoint. Would you please 
elaborate? What about the so-called ``1-E'' option--why was it not 
acceptable from a cost, requirements, and technical standpoint? If the 
B61 LEP were to pursue the triple-alt or 1-E, what would be the cost 
and schedule impacts?
    Ms. Miller. The current B61-12 LEP option, Option 3B, is the lowest 
cost option that meets all DOD requirements. Neither the Triple Alt nor 
the 1E option addresses all aging concerns on the B61 and would each 
require a second life extension with a first production unit (FPU) 
before 2028. Additionally, until the second life extension necessitated 
by these options was complete, there would continue to be risk of a 
capability gap to the U.S. extended deterrence mission. The scope of 
the second LEP would include other nonnuclear electronics, such as 
firing, arming and safety, thermal batteries, and use control 
components that must be replaced due to aging. In addition, nuclear 
components contemplated in the Triple Alt or 1E option would need to be 
refurbished to improve safety and ensure an additional 20-year service 
life. All system qualification and flight testing conducted to certify 
the Triple Alt or 1E option would need to be repeated in the second 
life extension. Another important consideration is that these options 
will not consolidate modifications, not allow a decrease in bomb 
quantities and not put us on a path to retire the B83. Pursuit of 
either of these options would greatly increase sustainment costs and 
require a second movement of B61 bombs for the second LEP, which in 
turn would increase DOE transportation risk and costs, as well as DOD 
costs.
    Mr. Rogers. 9) Ms. Miller, we have heard a lot of complaints that 
NNSA and DOD have not done any analysis of alternatives for the B61 
LEP. Would you please describe, in detail, the process that was used to 
analyze alternatives for the B61 LEP? Also, please describe the options 
that were considered and why they were rejected (or in the case of 
Option 3B, selected). In general, how do NNSA and DOD consider 
alternatives in the 6.X warhead life extension process?
    Ms. Miller. As discussed in the B61-12 Life Extension Program 
Interim Report on Commencement of Phase 6.3 Activities, July 2012, NNSA 
and DOD jointly assessed life cycle costs and benefits associated with 
life extension options during the Phase 6.2/2A Study. This assessment 
was done on seven options as part of Phase 6.2A, ranging from a full 
scope LEP with enhanced surety technologies to replacing only three 
aging components [Triple Alteration (Alt)]. After reviewing life cycle 
costs for each of the seven options, the Nuclear Weapons Council (NWC) 
selected Option 3B as the most cost effective option that met the 
minimum DOD military requirements. The option maximizes the reuse of 
nuclear and nonnuclear components while still meeting military 
requirements for service life extension and consolidation of multiple 
versions of the B61 into the B61-12. The option forgoes the newest 
surety technologies and instead improves security and safety of the 
bombs using somewhat older, but proven, technologies. The option 
includes mod consolidation using a USAF-provided tail kit assembly. 
Without mod consolidation, NNSA would be required to conduct two 
separate life extension programs with different scopes to address 
strategic and extended deterrence requirements. Additionally, mod 
consolidation will allow for reduced DOD maintenance and logistics 
activities and enable NNSA to maintain a more focused surveillance and 
assessment program for the single bomb variant than would be necessary 
if it were maintaining certification for two bomb variants. Although 
two of the other seven options had an initial lower cost, their 
lifecycle cost was higher as a result of not addressing all aging 
concerns. These two options would have necessitated another LEP to 
address the remaining concerns.
    Mr. Rogers. 10) Administrator Miller, if we have a continuing 
resolution going into FY14, will you recommend to the President that he 
seek an ``anomaly'' for NNSA--or any individual NNSA programs?
    Ms. Miller. Later this month, NNSA anticipates that the Office of 
Management and Budget (OMB) will be issuing additional guidance to 
Agencies to submit continuing resolution (CR) anomaly requests to OMB 
for different types of CR scenarios. At that time, NNSA will recommend 
some anomalies to OMB for OMB's consideration to transmit to Congress.
    Mr. Rogers. 11) Administrator Miller, would you consider the 
governance/management pilot program initiated at the Kansas City Plant 
in 2006/2007 to be successful? Is it still in place? Approximately how 
much money has been saved as a result of the program?
    Ms. Miller. The following is from the April 2008 Lessons Learned 
Report, Implementation of the Kansas City Site Office Oversight Plan at 
the Kansas City Plant:

        In April 2006, the Kansas City Site Office (KCSO) was directed 
        by the Administrator of the National Nuclear Security 
        Administration (NNSA) to develop a plan ``to create a dramatic 
        shift in oversight'' and implement the results by October 2006. 
        The KCSO implemented the required plan, which was approved in 
        January 2007. The Oversight Plan, along with the Kansas City 
        Responsive Infrastructure, Manufacturing and Sourcing (KCRIMS) 
        Project, are expected to enable Honeywell Federal Manufacturing 
        & Technologies, LLC (FM&T) to significantly reduce operating 
        costs, leverage commercial production, and provide a more 
        responsive facility for nonnuclear production.

        In 2008, this initiative was validated by several independent 
        assessments, which all concluded that it had been successful 
        for Kansas City Plant. A third party was contracted to perform 
        an analysis of the benefits of the Oversight Plan to contractor 
        operations. The analysis concluded that the oversight plan was 
        fully implemented, significant direct and indirect cost savings 
        had been achieved, and no significant detrimental impacts were 
        identified. Cost reductions for Honeywell FM&T resulted from 
        increased use of parent corporation systems, reduced support to 
        KCSO oversight, adjustment of the contract incentive fee 
        structure, elimination of DOE Orders and Directives, and the 
        development of a private enterprise like environment where cost 
        control and reduction are important elements in decisions 
        involving workforce size. Continued cost reductions for both 
        KCSO and Honeywell FM&T resulted from those same Oversight Plan 
        related drivers. The KCSO component of cost reduction was 
        estimated to be about $702K. For the contractor, cost 
        reductions were validated at $13M for FY07 and estimated at 
        $23M per year for FY08-13. By the end of FY 2014, Kansas City 
        Plant will have completed a major transformation of operating 
        procedures and facilities that save over $100 Million per year 
        in operating costs.

    Mr. Rogers. 12) Dr. Harvey, would you please describe, in detail, 
the process that was used to analyze alternatives for the B61 LEP? 
Also, please describe the options that were considered and why they 
were rejected (or in the case of Option 3B, selected). In general, how 
do NNSA and DOD consider alternatives in the 6.X warhead life extension 
process?
    Dr. Harvey. The Nuclear Weapons Council (NWC) decision to approve 
Option 3B for the B61-12 Life Extension Program was informed by 
analysis from the B61-12 Phase 6.2/6.2A, Feasibility Study and Option 
Down-select/Design Definition and Cost Study. During Phase 6.2, the DOD 
and National Nuclear Security Administration (NNSA) jointly evaluated 
options to meet military requirements, address component end-of-life/
weapon performance drivers and where possible, incorporate improvements 
in safety and security. Initially, the analysis focused on four design 
options (Options 2A-2D) that all included a full nuclear and nonnuclear 
life extension coupled with a DOD acquisition program for a tail kit 
assembly to maintain weapon effectiveness. These options differed in 
the level of enhanced surety they provided to the DOD. Due to the high 
costs associated with Options 2A-2D, as well as the risks associated 
with their potential implementation, the NWC requested additional 
alternatives be assessed. These additional alternatives included a) a 
minimum refurbishment option that only replaced three components 
(radar, neutron generator and power supply) with documented 
performance/aging issues (commonly known as the ``Triple Alt''), b) a 
minimum, credible nonnuclear component refurbishment program (Option 
1E), and c) a minimum nuclear and nonnuclear life extension program to 
meet DOD requirements (Option 3B). Although the Triple Alt met 
immediate known aging concerns at a reduced estimated cost, it was 
considered a ``stop gap'' measure since the B61 would still require a 
subsequent life extension program in the mid-2020s. Likewise, even 
though Option 1E's estimated costs were also significantly less than 
Options 2A-2D, it increased the risk associated with component reuse, 
it did not address nuclear refurbishment and it would require a 
subsequent refurbishment program to sustain a long-term B61 capability. 
Analysis indicated that both the Triple Alt and Option 1E would 
ultimately be more expensive than Option 3B due to successive multiple 
refurbishment actions required to sustain the B61. Based on this 
analysis, the NWC selected Option 3B because it offered a minimum 
program to address DOD requirements with a cost-effective, balanced 
approach to capability, technology risk, and warfighter needs. This 
option maximized component reuse and the use of proven technologies to 
manage cost and schedule risk. Finally, Option 3B will enable the 
United States to reduce its current nuclear stockpile through 
consolidation of four B61 variants into one B61-12.
    In general, the process used to down-select the B61-12 Option 3B is 
used by NNSA and DOD to assess LEP alternatives within the Phase 6.X 
process. Typically, the Weapon Design and Cost Report (WDCR), the NNSA 
product from Phase 6.2A, includes all costed design options. The DOD 
and NNSA, through a weapon system Project Officers Group, present these 
options with a recommended path forward to the NWC who in turn, 
authorizes a warhead LEP.
    Mr. Rogers. 13) Dr. Harvey, when does our current force of 
Minuteman III ICBMs start aging out? What life extension programs are 
currently under way for the ICBMs?
    a. What assessments or surveillance are we doing related to aging 
in the ICBM force?
    b. What are our plans or programs to replace or extend the life of 
the Minuteman III ICBM force into the 2030s? When must the decision be 
made on a replacement program?
    Dr. Harvey. The Air Force remains committed to modernizing and 
sustaining the Minuteman III (MM III) through 2030 while evaluating a 
follow-on Ground Based Strategic Deterrent (GBSD) capability. Flight 
tests and surveillance efforts continue for key MM III subsystems, 
including Solid Rocket Motors (SRM), Guidance and Reentry Vehicles, to 
provide more accurate estimates for component age-out and system end-
of-life timelines. MM III SRM, guidance and fuze replacements are 
expected to be needed prior to 2030. The ICBM Demonstration Validation 
program is maturing technologies for insertion into future SRM and 
guidance programs. The ICBM Fuze Modernization program is under way and 
will provide replacement fuzes starting in 2020. All of these efforts 
will be closely coordinated and leveraged with efforts to modernize the 
MM III through 2030. A GBSD Analysis of Alternatives study examining 
options and required capabilities for a follow-on ICBM system is 
scheduled to begin in August 2013 and a new ICBM development program 
could begin this decade.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. 14) Has the Administration considered potentially more 
cost-effective alternatives to provide strong and reliable extended 
deterrence to NATO countries, that might be discussed with the 
Europeans? Why, why not?
    Secretary Creedon. The United States participated actively in the 
NATO Deterrence and Defence Posture Review (DDPR) in 2012. Much like 
the U.S. Nuclear Posture Review, this critical review looked at 
different options before making final recommendations in the published 
DDPR.
    In the DDPR, the Alliance decided that:
    Nuclear weapons are a core component of NATO's overall capabilities 
for deterrence and defence alongside conventional and missile defence 
forces . . . . As long as nuclear weapons exist, NATO will remain a 
nuclear alliance. The supreme guarantee of the security of the Allies 
is provided by the strategic nuclear forces of the Alliance, 
particularly those of the United States; the independent strategic 
nuclear forces of the United Kingdom and France, which have a deterrent 
role of their own, contribute to the overall deterrence and security of 
the Allies.
    Consistent with NATO's commitment to remain a nuclear alliance for 
as long as nuclear weapons exist, Allies concur that the North Atlantic 
Council will direct that the appropriate committees develop concepts 
for how to ensure the broadest possible participation of Allies 
concerned (i.e., all members of the Nuclear Planning Group) in their 
nuclear sharing arrangements, including if NATO were to decide to 
reduce its reliance on nonstrategic nuclear weapons based in Europe.
    Mr. Cooper. 15) Given that the United States plans to spend between 
$9.6 billion $11.7 billion for extending the life of the B61 and a new 
Air Force tail kit, how much do NATO countries contribute to retaining 
forward-deployed B61s in Europe?
    Secretary Creedon. Recent NATO contributions toward forward-
deployed B61 warheads in Europe include funding for security 
enhancements and upgrades, as well as infrastructure upgrades 
(investment) at European weapon storage sites provided through the NATO 
Security Investment Program (NSIP). There have been four NATO weapons 
storage-related upgrades (Capability Package upgrades) since the 
original NATO Capability Package was approved in 2000:
                                                              Project 
                        Total (M) \1\

    \1\ NATO common funding derives from U.S. and other contributions. 
The U.S. burden-share costs are generally 24 percent of the NATO 
budget. The U.S. burden-share is generally 22-24 percent of the total 
NSIP costs. As a result, the NATO funds above include the U.S. 
contribution to NATO.


----------------------------------------------------------------------------------------------------------------
                   Initial WS3 Installation                                     approx. $215M USD
----------------------------------------------------------------------------------------------------------------
Basic Capability Package (Jul 2000)                             12.8M EUR
----------------------------------------------------------------------------------------------------------------
Addendum 1 (Feb 2005)                                           17.9M EUR
----------------------------------------------------------------------------------------------------------------
Addendum 2 (Apr 2006)                                           13.0M EUR
----------------------------------------------------------------------------------------------------------------
Addendum 3 (Mar 2009)                                           13.0M EUR
----------------------------------------------------------------------------------------------------------------
Addendum 4 (Aug 2011)                                           108M EUR
----------------------------------------------------------------------------------------------------------------

    Additionally, bilateral agreements require the host-nation to 
provide ``mission-related facilities, services, supplies and other 
logistical support'' for our units at each of the six sites. These may 
generally be scoped down to facilities and utilities, but the type and 
level of services, as well as funding for services provided, vary at 
each location.
    Mr. Cooper. 16) What is the impact of delayed reprogramming and 
NDAA FY13 provisions withholding funds for interim Pu [plutonium] 
strategy?
    Secretary Creedon. Delayed reprogramming and National Defense 
Authorization Act for Fiscal Year (FY) 2013 provisions are affecting 
near-term, critical pit production and certification. Additionally, Dr. 
Charles McMillan, Director of Los Alamos National Laboratory, has 
informed the National Nuclear Security Administration that further 
delay of the reprogramming would harm essential personnel at the lab 
and would create greater difficulty in meeting near-term DOD 
requirements, i.e., producing 10 pits per year by FY 2019, and ramping 
up to 30 pits per year by FY 2021. Meeting these requirements is 
essential to support the W78/88-1 warhead Life Extension Program.
    Mr. Cooper. 17) What is the requirement for plutonium pit 
production and under what circumstances might the need be fewer than 80 
pits? Is the Administration examining this plutonium pit requirement as 
directed in Sec 3147 of the NDAA FY 2013?
    Secretary Creedon. Section 3147 of the National Defense 
Authorization Act for Fiscal Year 2013 requires DOD to review its pit 
production requirement and provide analysis for a range of production 
capacities in a report to Congress. This report is currently with the 
Nuclear Weapons Council members for review and approval. DOD maintains 
its requirement for 50-80 pits per year in order to perform planned 
stockpile work, maintain the highly skilled workforce that performs 
this work, and hedge against technical failure and geopolitical 
surprise. Because multiple factors affect DOD requirements, including 
stockpile needs and U.S. policy objectives, DOD recognizes that at 
times fewer than 80 pits are required; therefore, DOD allows for a 
range of 50-80 pits per year. We look forward to informing Congress of 
our analysis more fully.
    Mr. Cooper. 18) Would increasing decision-time for the President by 
reducing alert levels, as Senator Nunn has recommended, provide 
opportunities for increasing stability and reducing the risk of 
miscalculation?
    Secretary Creedon. The Nuclear Posture Review follow-on analysis of 
deterrence requirements did look at this issue and did examine postures 
that involved some additional reduction in readiness. We found that 
additional steps in this regard would be difficult to verify on the 
other side, and more importantly could be destabilizing in a crisis if 
alert levels were restored. Our conclusion was that modernized and 
improved command and control systems and processes were a better method 
of increasing Presidential decisionmaking time than reducing alert 
levels.

    Mr. Cooper. 19) What is the impact of delayed reprogramming and 
NDAA FY13 provisions withholding funds for interim Pu [plutonium] 
strategy?
    General Kehler. NNSA's reprogramming request provides the initial 
funding to develop an interim plutonium processing capability at Los 
Alamos National Labratory, which is necessary to support the stockpile 
modernization program. Specifically, the funds will be used to equip 
the Radiological Laboratory Utility Office Building at Los Alamos for 
higher materials limits, repurpose portions of the Los Alamos Plutonium 
Facility (PF-4), and initiate preconceptual work for establishing 
enduring capabilities. Deferral of the reprogramming approval delays 
the initial implementation steps of the interim capability and delays 
the current plan to produce 30 pits per year by 2021 by at least 2 
years.
    Mr. Cooper. 20) What is the requirement for plutonium pit 
production and under what circumstances might the need be fewer than 80 
pits? Is the Administration examining this plutonium pit requirement as 
directed in Sec 3147 of the NDAA FY 2013?
    General Kehler. The long-term requirement for pit production is 50-
80 pits per year. NNSA has a plan to build this capacity over time to 
realize a fully responsive infrastructure. The near term life extension 
program needs can be met with less than this capacity by refurbishing 
and reusing components. As required in Sec. 3147 of the NDAA FY 2013, 
the Pit Production Requirements Report will address this question 
further and is in interagency coordination.
    Mr. Cooper. 21) Are you concerned about the risk of unexpected cost 
and schedule slips for the B61 LEP causing a delay to other LEPs?
    General Kehler. Yes. As currently planned, the B61 life extension 
provides an opportunity to cost-effectively address known and projected 
aging and performance issues and to enhance the safety and security of 
the system while aligning the effort within the overall capacity of the 
weapons complex. Slipping the B61 LEP schedule out of the narrow window 
of opportunity will create significant cost growth and impact 
refurbishments on other systems.
    Mr. Cooper. 22) Does New START remain in U.S. interests? Why? What 
would be the risks of limiting funding for New START implementation in 
FY14?
    General Kehler. Yes. New START reduces the potential threat to the 
American people, enhances stability and provides the U.S. with valuable 
insight into Russian strategic nuclear forces. The treaty's 
verification regime includes data exchanges, on-site inspections, and 
other measures enabling us to observe and evaluate Russian activities, 
including compliance with treaty obligations.
    Funding limitations in FY14 would introduce significant risk for 
the U.S. to comply with the treaty's central limits by February 2018. 
FY14 funding is necessary to continue elimination of deactivated, 
nondeployed systems and prepare to implement additional actions 
necessary to ensure compliance.
    Mr. Cooper. 23) Could further nuclear weapons reductions increase 
U.S. security?
    General Kehler. They could depending on the scale, scope, and 
nature of the reductions. I believe the negotiated mutual and 
verifiable reductions the U.S. has implemented with the Russians have 
definitely increased U.S. security by reducing significantly the number 
of nuclear weapons Russia could employ against us.
    Mr. Cooper. 24) What part of the nuclear weapons hedge is for 
technical surprise and what part is for guarding against geopolitical 
surprise?
    General Kehler. Our nondeployed stockpile addresses both technical 
and geopolitical uncertainty and risks. There is no specific stockpile 
distinction. Execution of the modernization program for weapons and 
infrastructure is imperative to ensure appropriate hedge capabilities.

    Mr. Cooper. 25) What is the impact of delayed reprogramming and 
NDAA FY13 provisions withholding funds for interim Pu [plutonium] 
strategy?
    Ms. Miller. The reprogramming funds initiate the activities 
associated with getting out of CMR and maintaining capabilities without 
CMR or CMRR-NF in the near term. Additional delays in approval of the 
reprogramming request slow down our efforts to ensure continuity in 
plutonium operations and will impact mission deliverables. The 
reprogramming request was submitted in September 2012; further delays 
in approval of the reprogramming pose a serious challenge to Los Alamos 
to meet mission requirements and will likely impact our ability to 
produce war reserve pits on the schedule required by the Life Extension 
Program. These challenges are described in the July 1, 2013 letter from 
LANL Director Charles McMillan to Secretary Moniz. Language in the 
FY2013 NDAA initially presented a challenge to begin execution of some 
activities associated with the plutonium strategy. Recent communication 
from both the House Armed Services Committee and the Senate Armed 
Services Committee indicates their conditional support for releasing 
part of the reprogramming to begin initial efforts associated with the 
Pu strategy. Release of the remaining funds would be approved after 
continued communication with both committees.
    Mr. Cooper. 26) What is the requirement for plutonium pit 
production and under what circumstances might the need be fewer than 80 
pits? Is the Administration examining this plutonium pit requirement as 
directed in Sec 3147 of the NDAA FY 2013?
    Ms. Miller. As directed in Section 3147 of the FY 2013 National 
Defense Authorization Act, the Secretary of Defense, in coordination 
with the Secretary of Energy and the Commander of U.S. Strategic 
Command is preparing a report for Congress on pit production capacity 
requirements. As of late August, the draft report is in interagency 
coordination and should be delivered soon.
    NNSA's current requirements for pit production are based on the 
NWC-approved plan as described in the classified annex of the FY 2014 
Stockpile Stewardship and Management Plan. The President's speech given 
in Berlin on June 19, 2013 announced changes in U.S. nuclear weapon 
employment guidance. That guidance may lead the Department of Defense 
to implement force structure changes that then may create circumstances 
leading to different pit production capacity requirements than we have 
in our current plans. Due to the anticipated length of time required 
for the Department of Defense to develop nuclear force structure 
changes, the report responding to section 3147 of the FY 2013 NDAA is 
based on current requirements. In any event, large changes are not 
expected as a result of any Department of Defense nuclear force 
structure changes.
    Mr. Cooper. 27) What is NNSA's plan to reduce cost and schedule 
risk for performing 4 concurrent LEPs? What is the risk that B61 could 
delay other LEPs for the W78/88 and other life extension programs for 
militarily necessary weapons?
    Ms. Miller. NNSA is continuing to work with the Department of 
Defense to define the anticipated scope, schedule, and costs for all 
the LEPs. The LEPs are not overlapping in a conflicted manner since 
they are in different phases of the Life Extension process. An example 
of reducing cost and schedule risk is the recent approval of the B61-12 
LEP. Based on a joint assessment of risk and costs, the Nuclear Weapons 
Council (NWC) selected Option 3B which combines a large amount of 
component reuse and some remanufacture and redesign where needed to 
minimize costs while meeting military requirements. As part of the 
decision process, the NWC also approved a 2019 First Production Unit 
(FPU) to reduce overall execution risk and better align B61-12 first 
production with completion of the W76-1
production.
    Regarding the B61, NNSA acknowledges there are risks to maintaining 
a B61-12 FPU in 2019 in part due to sequestration impacts and the 
expected integration challenges associated with a full life extension 
program scope. NNSA is aggressively working to manage those risks, hold 
schedule and complete production by the 2024-2025 timeframe. As NNSA 
executes the LEP, we will continue to work with the Department of 
Defense to balance future LEP requirements to meet cost constraints and 
address the needs of the Department of Defense.
    Mr. Cooper. 28) Why was DNN reduced by $542M, including an 18% cut 
to Global Threat reduction Initiative? Was this money transferred to 
weapons activities which was increased by $567M?
    Ms. Miller. In general, the reductions in DOE/NNSA's Office of 
Defense Nuclear Nonproliferation (DNN) reflect the successful 
completion of major program milestones, such as the surge in nuclear 
removals by the Global Threat Reduction Initiative (GTRI) in support of 
the 4-year plans, the planned December 2013 completion of the domestic 
uranium enrichment research, development, and demonstration project, 
and from reassessing the plutonium disposition program. Specifically, 
the reduction in funding for GTRI is not related to the increase in 
Weapons Activities; a significant portion of the Weapons Activities' 
increase came from an additional transfer of funds from the Department 
of Defense. Preventing nuclear and radiological terrorism remains one 
of the highest priorities for the Administration and DOE/NNSA, and we 
are working to address these dangers in the most effective, cost-
efficient, and timely manner possible.
    Mr. Cooper. 29) Why was GTRI funding reduced while the President 
was working toward a 4-year goal? How much HEU remains unsecured?
    Ms. Miller. The top-line reduction in funding for DOE/NNSA's Global 
Threat Reduction Initiative (GTRI) is mainly the result of the 
successful completion of our 4-year effort to secure vulnerable nuclear 
materials. The reduction is consistent with the 4-year plan and 
reflects increased funding requested in FY 2013 for removal efforts 
occurring in early FY 2014. Great strides have been made to reduce the 
prospect of nuclear terrorism in the last 4 years. As of August 6, 
2013, GTRI had removed and/or confirmed the disposition of 5,017 
kilograms of highly enriched uranium (HEU) and plutonium. GTRI has 
recently completed a 5-year effort to reconcile the amounts and 
location of U.S.-origin HEU outside the United States. As a result of 
that effort--as well as efforts to identify additional non-U.S.-origin 
HEU and plutonium that could be eliminated--GTRI has identified up to 
3,000 kilograms of additional HEU and plutonium that could be targeted 
for removal or downblending beyond the 4-year effort.
    Mr. Cooper. 30) How much highly Enriched Uranium remains outside 
the United States that could be secured or removed to decrease the risk 
of nuclear terrorism?
    Ms. Miller. DOE/NNSA's Global Threat Reduction Initiative (GTRI) 
has recently completed a 5-year effort to reconcile the amounts and 
location of U.S.-origin HEU located outside the United States. As a 
result of that effort--as well as efforts to locate additional non-
U.S.-origin HEU and plutonium that could be eliminated--GTRI has 
identified up to 3,000 kilograms of additional HEU and plutonium that 
could be targeted for removal or downblending.
    DOE/NNSA's Office of International Material Protection and 
Cooperation's (IMPC) immediate priority continues to be increasing the 
security of buildings and facilities in Russia that contain potentially 
vulnerable weapons-usable nuclear material. To date, the program has 
completed security upgrades at a cumulative 218 of the 229 buildings in 
Russia and has supported the downblending of over 15 metric tons of 
HEU.
    While considerable security benefits have been gained from these 
cooperative efforts, much work is left to be done in Russia. Our 
ongoing nuclear security partnership with Russia will continue to 
foster improvements in nuclear security best practices in Russia and 
will facilitate faster and more effective solutions to meeting the 
security challenges that both countries consider critically important.

    Mr. Cooper. 31) What is the impact of delayed reprogramming and 
NDAA FY13 provisions withholding funds for interim Pu [plutonium] 
strategy?
    Dr. Harvey. According to National Nuclear Security Administration 
(NNSA), delayed reprogramming and NDAA FY13 provisions are affecting 
near-term pit production and certification requirements. Additionally, 
Dr. Charles McMillan, Director of Los Alamos National Laboratory, has 
informed NNSA that further delay of the reprogramming will harm 
essential workforce at the lab and create even greater difficulty in 
meeting near-term DOD requirements, i.e., producing 10 pits per year by 
FY 2019 and ramping up to 30 pits per year by FY 2021. Meeting these 
requirements is essential to support the W78/88-1 Life Extension 
Program needs.
    Mr. Cooper. 32) What is the requirement for plutonium pit 
production and under what circumstances might the need be fewer than 80 
pits? Is the Administration examining this plutonium pit requirement as 
directed in Sec 3147 of the NDAA FY 2013?
    Dr. Harvey. The report requirement pursuant to section 3147 of the 
FY 2013 NDAA mandates the DOD review its pit production requirement and 
provide analysis for a range of production capacities. This report is 
currently with the Nuclear Weapons Council Members for review and 
approval. DOD maintains its requirement for 50-80 pits per year in 
order to perform planned stockpile work, maintain the highly skilled 
workforce that performs this work, and hedge against technical failure 
and geopolitical surprise. Because multiple factors affect DOD 
requirements, including stockpile needs and U.S. policy objectives, DOD 
recognizes that the range of 50-80 pits per year must be updated and 
refined frequently. We look forward to more fully informing Congress of 
our analysis.

    Mr. Cooper. 33) What is the requirement for plutonium pit 
production and under what circumstances might the need be fewer than 80 
pits? Is the Administration examining this plutonium pit requirement as 
directed in Sec 3147 of the NDAA FY 2013?
    Dr. Winokur. The Board does not participate in developing the 
requirements for plutonium pit production. Pursuant to Section 3147 of 
the National Defense Authorization Act for Fiscal Year 2013, the 
responsibility to assess the annual plutonium pit production 
requirement resides with the Secretary of Defense, in coordination with 
the Secretary of Energy and the Commander of the United States 
Strategic Command.
    Mr. Cooper. 34) How has the cost to procure IG services according 
to the intent of the Appropriations and authorization bills affected 
your budget?
    Dr. Winokur. The National Defense Authorization Act for Fiscal Year 
(FY) 2013 directed the Board to procure Inspector General (IG) services 
from a Federal Government agency having expertise in the Board's 
mission by no later than October 1, 2013. In so requiring, the NOAA was 
silent concerning the authorization of funds necessary to implement 
this provision.
    The Board's budget for FY 2014 is based on the current state of the 
relevant appropriations bills. Both the House and Senate Appropriations 
Energy and Water Development Subcommittees have authorized $29.915 
million for the Board's activities. Title IV of the House bill, 
however, further mandates that the Board provide $850,000 to the U.S. 
Nuclear Regulatory Commission's IG (NRC-IG) for IG services. While the 
Senate bill contains no such language,it must be noted that this bill 
has not yet passed the Senate floor.
    Consistent with the House bill, the NRC-IG has informed the Board 
that it will not provide IG services to the Board for less than 
$850,000. The Board believes $850,000 is grossly disproportionate to IG 
appropriations typically imposed on agencies of the Board's size. 
Nearly every similarly structured agency the Board examined had IG 
appropriations ranging from approximately 0.16 percent to 0.85 percent. 
Conversely, $850,000 would amount to nearly 2.84% of the Board's total 
current budget--the equivalent of three to four Board engineers. This 
reduction in the Board's staffing would necessarily result in less 
safety oversight of Department of Energy defense nuclear facilities.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. 35) While the FY 2014 budget request for NNSA weapons 
activities is more than 7% above last year's presequester appropriated 
level, the budget request for the Global Threat Reduction Initiative is 
a reduction of more than 15% below the FY 2013 level. Are you concerned 
that funding for weapons programs is crowding out funding for NNSA's 
vital nuclear and radiological material security programs?
    Ms. Miller. The funding level for the Global Threat Reduction 
Initiative (GTRI) largely reflects the successful completion of major 
program milestones. While the overall funding for GTRI is less in the 
FY 2014 request, the FY 2014 request for GTRI's Reactor Conversion 
program reflects a 16% increase, supporting the acceleration of the 
establishment of reliable supplies of the medical isotope molybdenum-99 
(Mo-99) produced without the use of highly enriched uranium (HEU). For 
GTRI's radiological material protection efforts, there is a partial 
offset by increases from cost sharing with volunteer domestic 
protection partners that does not appear in the GTRI budget.
    Four years of accelerated effort helped DOE/NNSA make a significant 
contribution to global security, but it is accurately described as ``a 
sprint in the middle of a marathon.'' More than 100 research reactors 
and isotope production facilities still operate with HEU, significant 
stockpiles of HEU still exist in too many places, and global 
inventories of plutonium are steadily rising. DOE/NNSA will continue to 
work with international partners to minimize the use of HEU, and 
eliminate additional stocks of HEU and plutonium after the completion 
of the 4-year effort. Preventing nuclear and radiological terrorism 
remains one of the highest priorities for the Administration and DOE/
NNSA. We are working with our domestic and international partners to 
secure these dangerous materials in the most effective, efficient, and 
timely manner possible.

                                  <all>

</pre></body></html>
